*** CAPITAL CASE ***
No.

IN THE

SUPREME COURT OF THE UNITED STATES

DACARIUS HOLLIDAY, Petitioner,
v.
STATE OF LOUISIANA, Respondent.

ON WRIT OF CERTIORARI TO THE
LOUISIANA SUPREME COURT

APPENDICES TO PETITION FOR WRIT OF CERTIORARI

Appendix A:

Opinion and Order Affirming Conviction and Death
Sentence, Louisiana Supreme Court, January 29, 2020
State v. Holliday, 2017-01921 (La. 1/29/20)

Appendix B:

Order Denying Rehearing, Louisiana Supreme Court
April 09, 2020, State v. Holliday, 2017-01921 (La. 04/09/20);
2020 La. LEXIS 679

State v. Holliday
Supreme Court of Louisiana
January 29, 2020, Decided
No. 2017-KA-01921
Reporter
2020 La. LEXIS 228 *; 2017-01921 (La. 01/29/20);; 2020 WL 500475

[Pg 1] CRICHTON, J.*
STATE OF LOUISIANA VS. DACARIUS HOLLIDAY

Notice: THIS DECISION IS NOT FINAL UNTIL
EXPIRATION OF THE FOURTEEN DAY REHEARING
PERIOD.

Subsequent History: Rehearing denied by State v.
Holliday, 2020 La. LEXIS 679 (La., Apr. 9, 2020)

Prior History: [*1] ON APPEAL FROM THE 19TH
JUDICIAL DISTRICT COURT, PARISH OF EAST
BATON ROUGE.
State v. Holliday, 24 So. 3d 863, 2010 La. LEXIS 66
(La., Jan. 8, 2010)

On June 27, 2007, a grand jury indicted defendant
Dacarius Holliday ("defendant") for the first-degree
murder of two-year-old Darian Coon. On March 14,
2010, a unanimous jury found defendant guilty as
charged. On March 17, 2010, the jury unanimously
determined that defendant be sentenced to death,
finding the following aggravating circumstances proven
beyond a reasonable doubt: (1) the offender was
engaged in the perpetration or attempted perpetration of
second-degree cruelty to juveniles; and (2) the victim
was under the age of twelve (12) years. See La. R.S.
14:30 (A)(1) and (5) and La. R.S. 14:93.2.3.
This is defendant's direct appeal pursuant to La. Const.
art. V, §5(D).1 Defendant raises 52 assignments of
error, variously combined into 29 arguments, all of
which will be addressed herein. After a thorough review
of the law and the evidence contained in the record
before this Court, we find that none of the arguments set
[Pg 2] forth by defendant constitute reversible error.
Accordingly, for reasons that follow, we affirm the
defendant's first-degree murder conviction and sentence
of death.

Disposition: AFFIRMED.
FACTS AND PROCEDURAL HISTORY

Judges: CRICHTON, J.

Ms. [*2] Amanda Coon ("Ms. Coon") met defendant,
29-year-old Dacarius Holliday, on the last day of her
vacation in Pensacola, Florida in early April 2007.

* Chief

Opinion by: CRICHTON

Opinion

Judge Susan M. Chehardy of the Court of Appeal, Fifth
Circuit, heard this case as Justice pro tempore, sitting in the
vacant seat for District 1 of the Supreme Court. Retired Judge
James Boddie Jr., appointed Justice ad hoc, sitting for Justice
Marcus Clark.
1 La.

Const. art. 5, § 5(D) provides in pertinent part: "... a case
shall be appealable to the supreme court if ... (2) the
defendant has been convicted of a capital offense and a
penalty of death actually has been imposed."

Erica Navalance

Pet. App. A 1

Page 2 of 45
2020 La. LEXIS 228, *2
Defendant, who lived in St. Louis, Missouri, was in
Pensacola visiting his aunt. The same day they met,
defendant traveled back to Baton Rouge with Ms. Coon
and moved in with her and her two children: four-yearold Daisha and two-year-old Darian, the victim. Early in
the morning on May 14, 2007, Ms. Coon left for work,
dropping Daisha at daycare on the way. Although
Darian ordinarily went to daycare as well, he remained
at home that particular day with defendant because Ms.
Coon was out of "pull-up" diapers, which the daycare
required.
Ms. Coon called to check on Darian around noon, and
defendant told her Darian was fine and playing. Later
that afternoon while Ms. Coon was at lunch, however,
defendant began calling her at work. When she returned
from lunch at around 4:00 p.m., she returned
defendant's call, and defendant told her to come home
right away but did not say why. During that
conversation, defendant told Ms. Coon that Darian was
sleeping.
When Ms. Coon arrived home from work sometime
between 5:30 and 6:00 p.m., defendant met her
outside [*3] and began telling her that he had "done
things in his life," which probably explained what was
happening to him. Alarmed, she went inside and found
Darian on the sofa, unresponsive, not breathing, and
cold to the touch. She ran outside, hysterical, screaming
and crying for help. Because of the screaming, neighbor
Kim Lejander Godfrey, appeared outside just as Ms.
Coon's brother Derrick, who was visiting from Houston,
drove up with Ms. Coon's daughter [Pg 3] Daisha. The
four adults went into the house, and Ms. Coon called
911 at 5:57 p.m.2 As defendant punched the walls
repeatedly, Ms. Coon, followed by Ms. Godfrey,
unsuccessfully attempted CPR at the direction of the
911 dispatcher. Firefighters arrived quickly and
attempted to resuscitate Darian, promptly followed by
paramedics, who took over the attempt at resuscitation,
but detected no breathing or cardiac activity. They
continued resuscitation efforts as they transported
Darian to Baton Rouge General Hospital, where further
life-saving efforts failed, and Darian was pronounced
dead at 6:42 p.m.
Defendant voluntarily accompanied detectives to the

police station when Darian and his family left for the
hospital and gave a voluntary [*4] statement to police
after hearing his Miranda rights3 and signing a waiver
form. Defendant told police that after Ms. Coon and
Daisha left that morning, the victim had urinated on
himself, so defendant had "beat his ass and put him on
the toilet and put him in the tub." Defendant said he
ordered Darian to sit on the toilet "for about two hours,"
or "until the toilet gets tired," as punishment for his toilettraining accident. After leaving Darian on the toilet,
defendant informed detectives he fell asleep on the sofa
and was awakened by the victim calling out. He moved
Darian to the bathtub and again fell asleep while the
victim sat in the tub. Defendant awoke because of a
noise in the bathroom, indicating that Darian was "not
sitting there like this, like he's supposed to, because
he's in trouble." Referencing him as a "little bitch,"
defendant stated Darian was "whimpering and whining,"
so he dressed him and walked him to a nearby store.
When they returned, he put the victim on the sofa and
later realized the victim was unresponsive. Defendant
denied hitting the victim hard enough to cause injury
and speculated that the victim had fallen and injured
himself in the [Pg 4] bathroom [*5] while defendant was
sleeping. When detectives requested a DNA sample,
defendant asked for a lawyer for that limited purpose but
denied requesting a lawyer for any other reason and
continued to re-initiate conversation with the detectives.
Eventually, the detectives obtained a warrant for
defendant's DNA sample, terminated the interview, and
released defendant after obtaining the DNA swabs.
The following day, May 15, 2007, defendant contacted
detectives and requested to attend the victim's autopsy
because he wanted to offer suggestions about potential
causes of the victim's death. Detectives declined his
offer but agreed to give defendant a ride to the police
station to discuss his concerns further. Dr. Gilbert
Corrigan, the pathologist who conducted the autopsy
that day, concluded that the victim died of multiple
traumatic injuries, including a lacerated liver, a partially
lacerated renal artery, and a fractured rib. Dr. Corrigan
also observed extensive bruising on the victim's head,
face, and body, bruising and a bite mark on the bottom
of the victim's foot, an injury to the tip of the victim's
penis, and noted as well that the victim's anus appeared
slightly dilated and distended. [*6]
After the autopsy, detectives again met with defendant,

2 The

911 call, approximately seven minutes in length, consists
of Amanda Coon's screaming and virtually incomprehensible
pleas for help. The 911 dispatcher can be heard attempting to
guide Ms. Coon and neighbor Ms. Godfrey through CPR while
they await the arrival of the paramedics.

3 Miranda

v. Arizona, 384 U.S. 436, 86 S.Ct. 1602, 16 L.Ed.2d
694 (1966).

Erica Navalance

Pet. App. A 2

Page 3 of 45
2020 La. LEXIS 228, *6
at which time he signed another waiver of rights form.
During this interview, defendant speculated that when
he "roughed up" the victim for urinating on himself, he
could have accidentally "misfired" and broken the
victim's rib, which then punctured the victim's lung and
killed him. Defendant also told officers "since you've
done the autopsy, you probably know," that he had
bitten the victim's foot and inserted his finger into the
victim's rectum. He claimed he did these things in an
effort to revive the victim and check his temperature.4
Eventually, the detectives told defendant the autopsy
showed the victim had died of massive internal injuries,
and defendant responded, [Pg 5] "That's deep—
massive internal injuries? That means I fucked up."
Officers ended the interview and placed defendant
under arrest.
A grand jury indicted defendant on June 27, 2007,
charging him with first- degree murder of Darian Coon.
Defendant was arraigned on October 31, 2007, and
entered a plea of not guilty. That same day, the State
filed a notice of intent to seek the death penalty,
designating as statutory aggravating circumstances: 1)
the offender was [*7] engaged in the perpetration or
attempted perpetration of cruelty to juveniles; 2) the
offender was engaged in the perpetration or attempted
perpetration of second-degree cruelty to juveniles; and
3) the victim was under the age of twelve. On May 20,
2008, the State filed its first amended notice of intent to
seek the death penalty and designation of aggravating
circumstances, adding to the above list of aggravating
circumstances that 4) the offender was engaged in the
perpetration or the attempted perpetration of aggravated
rape. On October 19, 2009, the State filed its second
amended notice of intent to seek the death penalty and
designation of aggravating circumstances, deleting two
previously designated circumstances, and designating
only two: 1) the offender was engaged in the
perpetration or the attempted perpetration of seconddegree cruelty to juveniles; and 2) the victim was under
the age of twelve.
The defense filed more than 90 pre-trial motions, as well
as additional supplemental motions. Notable among
these were: a motion to suppress and/or preclude the
use of DNA evidence at trial; motions to suppress
defendant's two statements to police; motions to
exclude gruesome autopsy [*8] photographs from use

4 At

one point during the interview, defendant also indicated he
inserted his finger in the child's rectum to check for a bowel
movement, stating he understood people to defecate or
urinate upon death.

at trial; a motion to determine admissibility of the 911
recording for use at trial; and motions relating to jury
selection, change of venue, the constitutionality of the
death penalty and portions of Louisiana's statutory
death penalty framework. The trial court held numerous
pre-trial hearings and ruled upon the motions. Both the
State [Pg 6] and defendant sought appellate review of
some of those rulings.5
Jury selection began on March 1, 2010, and a jury was
sworn on March 11, 2010. Eight panels of thirteen
prospective jurors were examined, and each side
exercised all available peremptory strikes. Opening
statements took place on March 11, 2010. The State
argued that it would present evidence to show that
defendant beat the victim to death after he urinated on
himself, that he deliberately harmed the victim by biting
his foot and damaging the victim's anus, and that he
failed to seek medical attention for the victim as the
victim died. In its opening statement, the defense
posited that the victim's death was an accident in the
course of discipline, and the State's evidence would only
demonstrate that defendant had acted with negligence
or recklessness. [*9]
On March 14, 2010, the parties presented closing
arguments, after which the trial court instructed the jury.
The jury deliberated for approximately one hour and
forty minutes before returning with a unanimous verdict
of guilty as charged of first-degree murder.
The penalty phase of trial began on March 16, 2010.
The State presented victim impact testimony from the
victim's mother, Ms. Coon, and the victim's grandfather,
Cleveland Coon, who both testified about the effect
Darian's death had on their family. Defendant presented

5 After

the trial court denied defendant's motion to exclude the
DNA evidence, defendant sought review in the First Circuit,
and thereafter in this Court, arguing the DNA evidence should
be excluded because it was not relevant to any of the facts at
issue. Both courts denied writs. State v. Holliday, 10-0401
(La. App. 1 Cir. 3/3/10) (unpub'd), writ denied, 10-0495 (La.
3/5/10), 28 So.3d 997.
Defendant filed a motion to exclude the recorded 911 call as
irrelevant and prejudicial, which the trial court granted, and to
exclude gruesome autopsy photographs, which the trial court
granted in part. The State sought review of these rulings, and
the court of appeal reversed and remanded. State v. Holliday,
09-1553 (La. App. 1 Cir. 9/28/09) (unpub'd). Defendant sought
review in this Court regarding the 911 call only, which this
Court denied. State v. Holliday, 09-2355 (La. 1/8/10), 24
So.3d 863.

Erica Navalance

Pet. App. A 3

Page 4 of 45
2020 La. LEXIS 228, *9
mitigation testimony from one family member, his aunt
Jacqueline James, who detailed defendant's turbulent
upbringing.
[Pg 7] In closing, the State argued that the same
aggravating factors were before the jury as in the guilt
phase of trial, and that none of the enumerated
mitigating factors applied to defendant. His only
mitigating consideration was a terrible childhood, which
applies to many people who do not go on to brutally
murder toddlers. The defense, in closing, asked the jury
to sentence defendant to life imprisonment, rather than
imposing the death sentence, as putting defendant to
death would not bring Darian back.
Following closing arguments, the jury [*10] deliberated
for approximately two hours and returned a verdict of
death on March 17, 2010. The jury unanimously found
beyond a reasonable doubt the following aggravating
circumstances: 1) the offender was engaged in the
perpetration or attempted perpetration of second-degree
cruelty to juveniles; and 2) the victim was under the age
of twelve. The court ordered a pre-sentence
investigation and reassigned the matter for further
proceedings on July 7, 2010.
On June 30, 2010, defendant filed a Motion for
Continuance and For New Trial. Defendant argued
therein that he was denied a jury selected from a fair
cross-section of the community and that he was
prejudiced by the introduction of irrelevant and
inaccurate DNA evidence.6 The trial court held a
hearing on defendant's motion for a new trial on July 7,
2010, and, after argument from both sides, denied the
motion. Defendant waived sentencing delay, and the
court sentenced defendant to death by lethal injection.7

6 In

his motion, defendant argued that a report obtained from
biologist Dr. Norah Rudin after his conviction showed that the
trial testimony of Julia Naylor, qualified as an expert in DNA
analysis, wrongly failed to exclude defendant as a contributor
to the DNA swab collected from the victim's penis. Naylor
stated that none of the swabs taken from defendant's body or
clothing included the victim's DNA, and none of the swabs
taken from the victim's body included defendant's DNA.
However, she was unable to determine whether defendant
was included or excluded in a mixture of DNA swabbed from
the victim's penis, because the sample contained insufficient
genetic material.
7 On

July 20, 2011, defendant filed a Supplemental Motion for
New Trial on the basis of the proposed testimony of
pediatrician Dr. Stephen Guertin, consulted post-trial, who,
upon reviewing post-mortem photographs of the victim's anus,

[Pg 8] The defendant filed a timely counseled appeal
brief through the Capital Appeals Project on August 13,
2018, and the State filed a timely brief on March 25,
2019.8 Defendant thereafter filed a counseled reply brief
on October [*11] 1, 2019.9

opined that "[t]here actually is no evidence whatsoever that the
child sustained anal sexual injury, as Dr. Corrigan made very
clear." The court held a hearing on the supplemental motion
on October 18, 2011, and denied the motion.
On October 22, 2015, defendant filed in this Court a pro se
Motion for New Trial, followed by a Motion to Vacate
Conviction and Sentence. This Court declined to consider the
pleadings because defendant failed to show he had previously
sought review in the courts below. State v. Holliday, 15-1979
(La. 2/24/17), 210 So.3d 273.
8 Additionally,

the Innocence Network and the Center for
Integrity in Forensic Sciences, Inc., filed an amicus curiae brief
on October 1, 2019, as did the Fred T. Korematsu Center for
Law and Equality and American Civil Liberties Union of
Louisiana on September 18, 2019. In their amicus brief, the
Innocence Network and Center for Integrity in Forensic
Sciences, Inc., argue that flawed forensic science in
conjunction with improper interrogation tactics result in false
confessions and wrongful convictions. Specific to the instant
case, they argue that defendant's statements and DNA were
improperly obtained after he invoked his right to counsel, and
that the police used coercive tactics in interviewing defendant
such as denying him a requested bathroom break and
misinforming him that evidence showed the victim had been
sexually assaulted.
In their amicus brief, the Fred T. Korematsu Center for Law
and Equality and the American Civil Liberties Union of
Louisiana argue that black men should be considered a
distinctive group under Duren v. Missouri, 439 U.S. 357, 364,
99 S.Ct. 664, 668, 58 L.Ed.2d 579 (1979) for purposes of the
fair cross-section doctrine. They argue that black males have
a unique experience of discrimination in the criminal justice
system, and the distinctiveness of a group is determined by
lived experience rather than fixed characteristics. The brief
echoes defendant's argument that the presence of black men
on a jury has been associated with lower likelihood of a death
sentence for black defendants, and jurors empathize more
readily with members of their own demographic group, which
allows for proper consideration of mitigation evidence.
9 Defendant

also filed pro se motions seeking to dismiss
appellate counsel, in which he argued his attorney maintained
a conflict of interest, and thereby violated the Louisiana Rules
of Professional Conduct, by ignoring defendant's instructions
to "pursue an appellant acquittal by raising specific claims...."
This Court denied his motion to dismiss counsel, but granted
defendant's motion to file a pro se supplemental brief.
Defendant subsequently filed several supplemental briefs, as

Erica Navalance

Pet. App. A 4

Page 5 of 45
2020 La. LEXIS 228, *11

DISCUSSION

I. Sufficiency of the Evidence (Defendant's
Assignments of Error 3-5)
When issues are raised on appeal both as to sufficiency
of the evidence and as to one or more trial errors, the
reviewing court must first determine whether there was
sufficient evidence to convict. State v. Hearold, 90-2094
(La. 6/29/92) 603 So.2d 731, 734.10 Here, defendant
contends in both his counseled application and pro se
[Pg 9] supplements that the State's evidence was
insufficient to support his conviction. He argues
specifically that the State failed to exclude every
reasonable hypothesis of innocence, in particular, the
State failed to prove the victim's injuries were not
caused by the extensive resuscitation efforts. Defendant

well as an objection to the State's motion for extension of time
to file its brief.
10 This

Court further held in Hearold:

The reason for reviewing sufficiency first is that the
accused may be entitled to an acquittal under Hudson v.
Louisiana, 450 U.S. 40, 101 S.Ct. 970, 67 L.Ed.2d 30
(1981), if a rational trier of fact, viewing the evidence in
accordance with Jackson v. Virginia, 443 U.S. 307, 99
S.Ct. 2781, 61 L.Ed.2d 560 (1979) in the light most
favorable to the prosecution, could not reasonably
conclude that all of the essential elements of the offense
have been proved beyond a reasonable doubt. When the
entirety of the evidence, including inadmissible evidence
which was erroneously admitted, is insufficient to support
the conviction, the accused must be discharged as to that
crime, and any discussion by the court of the trial error
issues as to that crime would be pure dicta since those
issues are moot.

points to several common, mild childhood ailments in
the victim's medical history and speculates that these
could have caused the victim's death. Defendant also
contends the State failed to prove he acted with the
requisite specific intent to kill or inflict great bodily harm
on the victim. Finally, in his pro se supplement,
defendant reasons that the victim died at the hospital,
rather than while in defendant's care, so the State could
not show that he killed the victim while engaged in the
perpetration of second-degree [*12]
cruelty to
juveniles.11
In evaluating the sufficiency of the evidence to support a
conviction, a reviewing court must determine whether,
viewing the evidence in the light most favorable to the
prosecution, any rational trier of fact could have found
proof beyond a reasonable doubt as to each of the
essential elements of the crime charged. Jackson v.
Virginia, 443 U.S. 307, 99 S.Ct. 2781, 61 L.Ed.2d 560
(1979); State v. Captville, 448 So.2d 676, 678 [Pg 10]
(La. 1984). The trier of fact makes credibility
determinations and may, within the bounds of rationality,
accept or reject the testimony of any witness. State v.
Mussall, 523 So.2d 1305, 1311 (La. 1988); State v.
Rosiere, 488 So.2d 965, 969 (La. 1986).
When circumstantial evidence forms the basis of the
conviction, the evidence, "assuming every fact to be
proved that the evidence tends to prove . . . must
exclude every reasonable hypothesis of innocence." La.
R.S. 15:438; see State v. Jacobs, 504 So.2d 817, 820
(La. 1987) (all direct and circumstantial evidence must
meet the Jackson test); State v. Porretto, 468 So.2d
1142, 1146 (La. 1985) ( La. R.S. 15:438 serves as an
evidentiary guide for the jury when considering
circumstantial evidence).12 In cases relying on
circumstantial evidence to prove one or more elements
of the crime, when the fact-finder reasonably rejects the

11 At

On the other hand, when the entirety of the evidence,
both admissible and inadmissible, is sufficient to support
the conviction, the accused is not entitled to an acquittal,
and the reviewing court must then consider the
assignments of trial error to determine whether the
accused is entitled to a new trial. If the reviewing court
determines there has been trial error (which was not
harmless) in cases in which the entirety of the evidence
was sufficient to support the conviction, then the accused
must receive [*13] a new trial, but is not entitled to an
acquittal even though the admissible evidence,
considered alone, was insufficient. Lockhart v. Nelson,
488 U.S. 33, 109 S.Ct. 285, 102 L.Ed.2d 265 (1988).

trial, defendant presented a negligent homicide theory of
defense. As such, his current hypothesis of innocence is
arguably precluded. Cf. State v. Juluke, 98-0341, pp. 4-5 (La.
1/8/99), 725 So.2d 1291, 1293 (alternate and inconsistent
theories not considered on appeal).
12 When

the conviction is based on both direct and
circumstantial evidence, and direct evidence is viewed in the
light most favorable to the prosecution, as it must be, the facts
established by the direct evidence and inferred from the
circumstantial evidence must be sufficient for a rational juror to
conclude beyond a reasonable doubt that a defendant was
guilty of every essential element of the crime. State v.
Jacobs, 504 So.2d 817, 820 (La. 1987).

Erica Navalance

Pet. App. A 5

Page 6 of 45
2020 La. LEXIS 228, *12
hypothesis
of
innocence
advanced
by
the
defendant [*14] at trial, that hypothesis fails, and the
verdict stands, unless the evidence suggests an
alternative hypothesis sufficiently reasonable that
rational jurors could not find proof of the defendant's
guilt beyond a reasonable doubt. Captville, 448 So.2d at
678.
Under La. R.S. 14:30(A)(1) and (A)(5), to obtain a
conviction for first-degree murder in this case, the
prosecution was required to prove beyond a reasonable
doubt that the victim was under the age of 12, or that
defendant killed him with the specific intent to kill or to
inflict great bodily harm. To prove the aggravating factor
of second-degree cruelty to juveniles, the State had to
show that defendant was over the age of 17, and he
mistreated or neglected the victim, who was under the
age of 17, either intentionally or with criminal
negligence, thereby causing serious bodily injury or
neurological impairment. La. R.S. 14:30(A)(1) and (5);
La. R.S. [Pg 11] 14:93.2.3(A)(1). Specific criminal intent
is that state of mind which exists when the
circumstances indicate that the offender actively desired
the prescribed criminal consequences to follow his act
or failure to act, and may be inferred from the
circumstances surrounding the offense and the conduct
of the defendant. La. R.S. 14:10(1); State v. Butler, 322
So.2d 189, 192-93 (La. 1975).
We find that under La. R.S. 14:30(A)(1) or [*15] (A)(5),
the State's evidence in this case was more than
sufficient to show each element of the offense and to
negate every reasonable hypothesis of innocence. The
State introduced testimony from Dr. Gilbert Corrigan,
qualified as an expert in forensic pathology, to prove the
victim's cause of death. Dr. Corrigan testified that he
conducted the autopsy on the victim the day after his
death. He concluded that the victim's cause of death
was multiple blunt-force traumatic injuries with major
abdominal trauma. His internal examination revealed
the victim's liver was lacerated and partially torn loose,
and there was a laceration in the rear surface of the
victim's peritoneal cavity. The victim's kidney was also
lacerated, and his renal artery was torn internally and
partially lacerated, causing a hemorrhage in and around
the kidney. Dr. Corrigan opined that approximately 30 to
40 pounds of pressure per square inch were required to
cause the victim's injuries under these circumstances.
One of the victim's left ribs had a twisting-type fracture,
characteristic of traumatic injury, and was surrounded
by a hematoma. Dr. Corrigan testified that the injury to
the victim's rib, although only "one-seventh" [*16] of the
total injuries "certainly was painful. And it would stop

him from breathing normally, so it was a major injury."
These numerous injuries caused extensive internal
bleeding, which Dr. Corrigan indicated ultimately killed
the victim. He concluded these injuries were all newlyinflicted shortly before death, as they showed no signs
of any early healing processes, and the blood, which
filled the victim's abdominal cavity, was fresh. He
estimated that the blood loss from the victim's injuries
would have likely caused death quickly, possibly
within15 [Pg 12] to 20 minutes.
In his external examination, Dr. Corrigan observed
approximately 75 bruises on the front and back of the
victim's body as well as his head. Reviewing the
autopsy photographs, he identified round bruising on the
victim's chest and abdomen that were characteristic of
finger imprints, and five larger bruises on the victim's
face and head. Dr. Corrigan noted on cross-examination
that the victim "had a lot of bruises. And they are the
kind that comes from fingers. A lot of them. Although
there are other places where the bruising has fused
together, just a big black and blue mark."
Dr. Corrigan testified that the victim [*17] had a "distinct
lesion" on the end of his penis, which he documented,
but he said, "I don't know what this is. It certainly is not
the cause of death." He also testified that the victim's
anus was "distended and dilated" but the tissues were
not perforated.13
Defense witness Dr. Robert Burris, who testified as an
expert in radiology, countered some of Dr. Corrigan's
testimony. Dr. Burris stated that he did not observe any
broken bones on x-rays taken of the victim after his
death. On cross-examination, however, Dr. Burris noted
that the autopsy photographs clearly indicated some
type of injury to the victim's rib, and that he would defer
to the pathologist who had performed an actual
examination of the body.
Ms. Amanda Coon testified as to the victim's age, that
the victim's fatal injuries were inflicted after she left him
in defendant's care on May 14, 2007, and she
demonstrated defendant's criminal neglect of the victim.
Specifically, Ms. Coon testified that defendant moved in
with her family after she met him while on vacation in
Florida about six weeks before the victim's death. As

13 On

cross-examination, Dr. Corrigan made a few other
observations, such as a scarred area on the victim's buttocks,
what appeared to be scabies, and a white line on the victim's
neck that appeared to be a variation in the victim's
pigmentation, and not an injury.

Erica Navalance

Pet. App. A 6

Page 7 of 45
2020 La. LEXIS 228, *17
previously noted, Ms. Coon [Pg 13] verified that while
ordinarily her children went to daycare while [*18] she
was at work, on this particular day, however, Darian
stayed home with defendant because the daycare
required toilet-training children to wear "pull-up" diapers,
and she had run out. She bathed Darian before she left
for work because he had wet the bed during the night,
and she did not notice any bruises.
Around noon, Ms. Coon called and spoke with the
victim. She called again later, but defendant did not put
Darian on the phone because he was taking him to the
store. Ms. Coon took a late lunch break at
approximately 4:00 p.m., and when she returned from
lunch she learned from her supervisor that defendant
had been trying to call her. Ms. Coon returned
defendant's call, and he told her to come home
immediately, but did not tell her why. She left work and
drove home. Defendant was sitting outside waiting for
her when she arrived, and he began talking vaguely
about things he had done wrong in his life, but he did
not seem upset. Ms. Coon went inside to check on
Darian and found him lying on the sofa under a blanket,
cold and unresponsive. She called 911 and
unsuccessfully tried to perform CPR; her neighbor Ms.
Godfrey helped, and defendant punched the walls.
Firefighters arrived, soon [*19] followed by the
paramedics, who sent the family to wait outside while
they attended to the victim. Ms. Coon and her brother
followed the ambulance when it brought Darian to the
hospital, where a doctor informed her that Darian had
died. Until the next day when she spoke with detectives,
Ms. Coon testified she did not know what had caused
Darian's death. As discussed above, Ms. Godfrey
corroborated this testimony, confirming that the victim's
injuries took place while he was in defendant's care, and
that defendant failed to seek help for the unresponsive
victim.14
[Pg 14] The State introduced defendant's two recorded

14 Ms.

Godfrey testified that on May 14, 2007, she lived in an
apartment behind Ms. Coon and her children. That evening,
she heard Ms. Coon screaming outside so she exited her
apartment to investigate. She followed Ms. Coon into the
Coons' home, where the victim was propped up on the sofa,
cold, unresponsive, and not breathing. In hysterics, Ms. Coon
called 911 and the dispatcher directed her to perform CPR on
the victim while they waited for the paramedics; Ms. Godfrey
took over the effort because she was CPR-certified and Ms.
Coon was inconsolable. Ms. Godfrey also testified that
defendant was fighting with the paramedics, "like punching the
walls and stuff, just going crazy."

statements given to the police, specifically to establish
defendant's age, to show that defendant had the specific
intent to inflict great bodily harm when he caused the
victim's fatal injuries, and to establish that defendant
killed the victim while in the commission of seconddegree cruelty to a juvenile. In the recordings, defendant
stated that he was 29 years old. In recounting the
events of the day, defendant told detectives that after
Ms. Coon and Daisha left for work and school, the victim
urinated on himself. Because of this, defendant "beat his
ass and put him on [*20] the toilet and put him in the
tub." He told detectives that when the victim has a toilettraining accident, "I get them legs, I get them arms,"
while demonstrating closed-fist punching, and said, "I
might jab, jab him in his stomach." In his second
statement, defendant described it as "boxing," while
demonstrating the jabs, and explaining that he punched
the victim and "roughed his ass up" after he urinated,
although he claimed his closed-fist punching was not
forceful enough to have killed the victim. However, he
also speculated that perhaps he had "misfired" while
roughing up the victim and broken his rib, which then
punctured one of the victim's lungs and killed him. Using
the words "jabbed his ass up" and "punch," defendant
said he could not tell detectives how many times he had
"misfired" or punched the victim. Defendant asked the
detectives if the autopsy revealed the victim's throat had
been crushed. The detectives told him no, and
defendant replied "that's good, so I, that, so that didn't
kill him," then added "since I know I didn't choke him."
Defendant also asked the detectives what had caused
the victim's death, and they replied that he had died of
massive internal injuries. [*21] Defendant responded,
"That's good . . . . I thought I killed that boy."
Defendant also described punishing the victim for
urinating on himself by forcing [Pg 15] the toddler to sit
on the toilet, and then in the bathtub, for a prolonged
period, telling the victim, "You'll sit there until the toilet
gets tired." He re-enacted the scene for the detectives,
emulating the victim's voice saying "I'm finished, I'm
finished," in a mocking, high-pitched, child-like tone, and
replied in his own angry-sounding voice, "no, sit your
ass on that motherfuck" . . . "sit your ass there and don't
fucking move! You know what I'm saying, I mean, shit.
Sit, and don't fucking move!" and "I'll put your ass there
in that corner, in that tub, and on that toilet, for about
two hours."
Defendant told detectives that he went to sleep on the
sofa while the victim was being punished, and a noise
from the bathroom woke him up. He speculated the
victim had injured himself by falling in the bathroom

Erica Navalance

Pet. App. A 7

Page 8 of 45
2020 La. LEXIS 228, *21
while defendant was asleep. Because the victim was
"whimpering and whining," defendant dressed him and
took him to a nearby store. When asked if the victim
was able to walk to and from the store independently,
defendant [*22] answered, "[l]ike I say he was on that
bullshit, that whaaa, whaaaaa, that whimpery-ass
bullshit, so I got his ass up and carried him all around
there." Then defendant stated that, "[i]nstead of me
looking at him like he's whimpering and whining
because he's hurt, I'm looking at him like he's
whimpering and whining because he's acting like a little
bitch," and, "he does that all the time, he's always
whimpering and whining like a little bitch."
Defendant claimed that he put the victim on the sofa for
a nap when they returned from the store, and later
noticed the victim was unresponsive. After he was
unable to rouse the victim, he began trying to call Ms.
Coon and "her best friend," but never called 911
"because I already knew I'd get the blame for it." In the
second interview with detectives, after learning the
victim's autopsy was complete, defendant volunteered
that he had bitten the victim on the bottom of the foot,
and claimed he did so in an effort to revive the victim.
He also told detectives that "I mean, if y'all did the
autopsy, you probably know, the last thing I did, is, I
checked for a bowel [Pg 16] movement . . . As far as
that whole sticking my finger in his ass thing, [*23] I
caught myself trying to check his body temperature."
Defendant acknowledged that perhaps he was
"negligent" for failing to seek medical attention for at
least an hour while the victim was unresponsive and
explained he thought the victim was already dead.
In brief, defendant contends the evidence at trial
supports the reasonable hypothesis of innocence that
the victim's internal injuries and extensive bruising were
inflicted during the extensive resuscitative attempts,
noting that first Ms. Coon and Ms. Godfrey, then
firefighters, then paramedics, then the emergency room
staff, all unsuccessfully attempted to perform CPR on
the victim. Since pathologist Dr. Corrigan testified that
the victim would have died between 15 and 20 minutes
after receiving the injuries that caused his internal
bleeding, and the victim was pronounced dead at the
hospital at 6:42 p.m., defendant concludes the fatal
injuries were inflicted at roughly 6:30 p.m., at which time
paramedics were attempting to resuscitate the victim.
The paramedics detected no heartbeat when they
arrived at 6:03 p.m. As noted above, defendant cites
paramedic Jessica Wright's testimony that when she
arrived, she observed no signs inconsistent [*24] with

life, and concludes this proves the victim was "still alive"
at that point. However, defendant misleadingly omits the
context of that statement. In fact, Wright testified as
follows:
Q: What shape was he in when you saw him when
you got there? A: He was pulseless and apneic.
Q: Okay. So he had no signs of life at that point?
A: He was in asystole and was not breathing and
did not have a pulse.
...
Q: When y'all go out and someone has no pulse
and is not breathing, do y'all declare them
deceased?
[Pg 17] A: No. Not unless there is any signs
inconsistent with life, which would be like rigor or
lividity.
Q: And at that point in time, he didn't have those?
A: No, he did not.
Q: Was he cool to the touch?
A: He was cool, not cold.
...
Q: Okay. And on the way to the hospital, were y'all
able to resuscitate him at all?
A: He stayed in asystole the entire time. . .
.[Meaning h]is heart was not doing anything. It was
basically a flat line.
Paramedic Amie Cramer similarly testified that when
they arrived, the victim was cool to the touch, had no
pulse, and was not breathing. The paramedics cut off
his shirt with trauma shears to attach a cardiac monitor,
which detected no heart rhythm. With his shirt [*25]
removed, they observed numerous bruises all over the
victim's body. When asked whether their resuscitative
efforts could have caused "any extra injuries" to the
victim, Cramer responded "that's probably always a
possibility," however, before they began working on the
victim, she saw "there were bruises everywhere," and
when her partner intubated the victim, they saw the
victim's "mouth is cut. And he has bruises on his face.
When we removed the shirt, there were bruises
everywhere. And that was before we had vigorously
began CPR."
Defendant argues the paramedics found no signs
"inconsistent with life," such as rigor mortis or lividity,
which defendant interprets as meaning the victim's fatal
injuries occurred subsequent to their arrival. However,
defendant both misunderstands and misinterprets the
evidence introduced at trial, which shows that although
the victim was not pronounced dead until 6:42 p.m., he
had already ceased breathing and was cold to the touch
when Ms. Coon and Ms. Godfrey found him and [Pg 18]

Erica Navalance

Pet. App. A 8

Page 9 of 45
2020 La. LEXIS 228, *25
called 911 at 5:57 p.m.15
Furthermore, the victim also had bruising covering the
entire bottom of his foot, which does not comport with
defendant's resuscitation theory, and a prominent [*26]
bite mark that defendant admitted he inflicted. The
autopsy photograph reveals a clear dental impression
on the victim's foot.16
We find defendant's explanation that he bit the victim in
an attempt to revive him implausible. Moreover, there is
no reasonable scenario in which the mild and ubiquitous
childhood illnesses the victim had—like ear infections,
ringworm, diaper rash—could have caused the victim's
cardiac arrest, which necessitated the resuscitative
attempts in the first place. Defendant's claim that the
victim was "unhealthy" is contradicted by testimony from
the victim's pediatrician since birth, Dr. Melvin Murrill,
who testified that the victim "had normal, routine things
that almost all children get. But otherwise he was
healthy."
We find that the State presented sufficient evidence to
show that the two-year-old victim died because of the
severe beating the 29-year-old defendant inflicted upon
him. Moreover, we conclude there is sufficient evidence
to show that defendant had the specific intent to inflict
great bodily harm on the victim when he repeatedly
punched him with enough force to lacerate the toddler's
internal organs and cause internal bleeding, ordered
him to sit [*27] for hours on the toilet as punishment for
a toilet-training accident, and bit the victim on the foot
with enough force to leave clearly visible dental
impressions. Even after the toddler had died of the
injuries [Pg 19] caused by defendant's beating,

15 The

Autopsy Protocol states "[The victim] was found
unresponsive at home, taken to Baton Rouge General
Hospital where he was declared dead following failure to
respond to treatment at 1842 on May 14, 2007."
16 Paramedic

Jessica Wright testified that she and paramedic
Amie Cramer responded to the 911 call, and when they
arrived the victim had no pulse and was not breathing. The
victim was slightly blue and cool to the touch, but not cold, and
had no signs of rigor or lividity. Despite their attempts to
resuscitate Darian, they were never able to get Darian's heart
to resume beating. She reported the victim's case to the Office
of Children's Services because she observed numerous
bruises on the victim's body, which varied in color, leading her
to believe they were in various stages of healing. However,
Wright testified that she would defer to a pathologist's opinion
on whether the bruises were fresh or in various stages of
healing.

defendant spoke of "beating his ass" and mocked the
dying child's cries as "whimpery-ass bullshit," and
referred to him as a "little bitch." Particularly in
conjunction with defendant's animus toward the toddler,
evident in his videotaped statement, the fatal internal
injuries defendant inflicted while punching and beating
the two-year-old victim are sufficient to show
defendant's specific intent to kill or inflict great bodily
harm. Cf. State v. Fuller, 414 So.2d 306, 310 (La. 1982)
(Specific intent to cause serious bodily harm inferred
because "[w]hen a much stronger man hits a younger,
smaller man, the fact finder could rationally conclude
that the offender intended to cause, at a minimum,
unconsciousness and/or extreme physical pain."); State
v. Hager, 13-0546 (La. App. 5 Cir. 12/27/13), 131 So.3d
1090, 1092-93 (Specific intent to cause serious bodily
injury can be inferred where male defendant punched
female victim with sufficient force to fracture her orbital
bone.); State v. Accardo, 466 So.2d 549, 551-52 (La.
App. 5 Cir. 1985), writ denied, 468 So. 2d 1204 (La.
1985) (specific intent to cause serious bodily injury
where male defendant [*28] struck female victim in the
head, causing her face to swell).
The State also showed that by punching a toddler with
closed fists, biting his foot with enough force to leave a
clear impression of his teeth, inserting his finger into the
child's anus, and failing to seek medical attention when
the child was unresponsive and not breathing,
defendant mistreated or neglected the victim
intentionally, or with criminal negligence, and thereby
caused serious bodily injury. These elements establish
the aggravating factor of second-degree cruelty to a
juvenile. We reiterate that:
the court does not determine whether another
possible hypothesis has been suggested by
defendant which could explain the events in an
exculpatory fashion. Rather, the reviewing court
evaluates the evidence in the light most favorable
to the prosecution and determines whether the
alternative hypothesis is sufficiently reasonable that
a rational juror could not 'have found proof of guilt
beyond a reasonable doubt.'
[Pg 20] State v. Captville, 448 So.2d 676, 680 (La.
1984) (internal citation omitted) (emphasis added).
Based upon the aforementioned analysis, under
Jackson v. Virginia, 443 U.S. 307, 99 S.Ct. 2781, 61
L.Ed.2d 560 (1979), we find the State has proven
beyond a reasonable doubt each of the essential
elements of the crime charged. [*29] As a result, this
assignment of error is without merit, and we therefore

Erica Navalance

Pet. App. A 9

Page 10 of 45
2020 La. LEXIS 228, *29
turn to defendant's remaining assignments of error.

II. Pre-Trial (Assignments of Error 40, 41, 48, 38)

A. Change of venue (Defendant's Assignment of
Error 40)
Defendant argues the trial court erred by denying his
Motion for Change of Venue because pre-trial publicity
prejudiced the venire and prevented him from receiving
a fair trial.
A defendant is guaranteed an impartial jury and a fair
trial. La Const. art. I, § 16; State v. Brown, 496 So.2d
261, 263 (La. 1986); State v. Bell, 315 So.2d 307 (La.
1975). To this end, the law provides for a change of
venue when a defendant establishes that he will be
unable to obtain an impartial jury or a fair trial at the
place of original venue. Bell, 315 So.2d at 309; Rideau
v. Louisiana, 373 U.S. 723, 83 S. Ct. 1417, 1419-20, 10
L. Ed. 2d 663 (1963). Changes of venue are governed
by La.C.Cr.P. art. 622, which provides:
A change of venue shall be granted when the
applicant proves that by reason of prejudice
existing in the public mind or because of undue
influence, or that for any other reason, a fair and
impartial trial cannot be obtained in the parish
where the prosecution is pending.
Nonetheless, "a defendant is not entitled to a jury
entirely ignorant of his case and cannot prevail on a
motion for change of venue merely by showing a
general level of public awareness about the crime," and
"whether a [*30] defendant has made the requisite
showing of actual prejudice is 'a question addressed to
the trial court's sound discretion which will not be
disturbed on appeal absent an affirmative [Pg 21]
showing of error and abuse of discretion.'" State v. Lee,
05-2098, p. 33, (La. 1/16/08), 976 So.2d 109, 133
(internal citation omitted).
Only rarely will prejudice against a defendant be
presumed. See State v. David, 425 So.2d 1241, 1246
(La. 1983) ("[U]nfairness of a constitutional magnitude
will be presumed in the presence of a trial atmosphere
which is utterly corrupted by press coverage or which is
entirely lacking in the solemnity and sobriety to which a
defendant is entitled in a system that subscribes to any
notion of fairness and rejects the verdict of the mob.").
Otherwise, the defendant bears the burden of showing

actual prejudice. State v. Vaccaro, 411 So.2d 415 (La.
1982); State v. Adams, 394 So.2d 1204 (La. 1981);
State v. Williams, 385 So.2d 214 (La. 1980); State v.
Felde, 382 So.2d 1384 (La. 1980).
In the present case, on September 19, 2007, before jury
selection began, defendant filed a Motion for a Change
of Venue, arguing that he could not receive a fair trial in
East Baton Rouge Parish because of excessive and
prejudicial pre-trial publicity. On February 12, 2008,
defendant filed a Supplemental Motion for Change of
Venue, which included attachments relating to
newspaper and television coverage of the case. The
trial court denied defendant's motion [*31] at a hearing
on February 23, 2009, finding: "[t]he court does not feel
that the defendant would be prejudiced in any way by
having his trial here in East Baton Rouge Parish."
Out of the 102 venire members questioned, defendant
now identifies ten venire members who reported having
seen mention of the case in the media. Our review of
the record reflects four additional venire members who
reported media exposure to the court, which is roughly
14% of the venire. The court questioned each of these
individuals at the bench, out of earshot of the panel. The
majority of those prospective jurors reported having
seen only headlines or minimal facts of the case and
indicated they were not influenced by their media
exposure and had no opinion of the case. Those who
did express bias indicated they were not influenced by
the [Pg 22] media coverage, but rather by their personal
emotional response to crimes involving young children.
It appears that only three, or roughly 3%, were excused
on this basis. This Court has held that where exposure
to media coverage results in 11% of a venire removed
for bias, this "does not even approach a threshold
showing of community-wide prejudice." State v. Magee,
11-0574, p. 25, (La. 9/28/12), 103 So.3d 285, 306.
Since the mere [*32] 3% of jurors excused for bias here
is notably less than the 11% of a venire removed in
Magee, we do not find defendant has shown any error in
the trial court's ruling denying his motion for a change of
venue. Consequently, we find this assignment of error is
without merit.

B. Incomplete Chain of Custody (Defendant's
Assignment of Error 41)
Defendant argues that the trial court erred by permitting
the State to introduce "several pieces of physical
evidence in this case, including a blanket, a towel, the
child's clothing, swabs from both Darian and Mr.

Erica Navalance

Pet. App. A 10

Page 11 of 45
2020 La. LEXIS 228, *32
Holliday, and Mr. Holliday's underwear," because the
State failed to establish a complete chain of custody for
those items. Defendant suggests the erroneous
introduction of this evidence violated his right to due
process. The State counters that defendant cites no
authority for his argument that introduction of evidence
despite an incomplete chain of custody constitutes a
due process violation. Nor can defendant show
prejudice here, the State argues, because the chain of
custody was complete until after the crime lab finalized
the testing and re-sealed the evidence.17
Lack of positive identification or any defect in the
chain [*33] of custody goes to the weight of the
evidence rather than to its admissibility. State v. Sam,
412 So.2d 1082, [Pg 23] 1086 (La. 1982). Ultimately,
the factfinder decides any chain of custody or connexity
of the physical evidence issues. State v. King, 355
So.2d 1305, 1310 (La. 1978); see also La.C.E. art.
901(B)(1) (testimony of a witness with knowledge that a
matter is what it is claimed to be suffices to authenticate
it).
As an initial matter, the record here shows that the
defense, rather than the State, introduced the bags
containing the bath towel, black shorts, gray shorts, red
shirt, pink toilet-training panties, and quilt into evidence
as Defense Exhibits 2 and 3. As such, defendant's
claims regarding those items are baseless.
Regarding the remaining evidence, defendant objected
at trial to testimony from the Louisiana State Police
Crime Lab's Forensic DNA Analyst, Julia Naylor, and
the introduction of the results of her DNA testing.18

17 We

note here, however, that the State need not show a
continuous chain of custody if the evidence as a whole
establishes more probably than not that the objects introduced
were the same objects originally seized by police officers. See
State v. Johnson, 598 So.2d 1152, 1156 (La. App. 1 Cir.
1992), writ denied, 600 So. 2d 676 (La. 1992) ("[A] continuous
chain of custody is not essential to enable the State to
introduce physical evidence as long as the evidence as a
whole establishes that it is more probable than not that the
object introduced was the same as the object originally
seized.").
18 Ms.

Naylor testified regarding her procedure for receiving
evidence and testing it, as well as identifying the seals and
marks placed on each envelope as the evidence was
collected, stored, and transferred between agencies. She
described opening each envelope, conducting the applicable
testing, and then resealing the envelope for return to the
sending agency. She also identified the seals she had placed

Defendant acknowledged that the testimony established
the chain of custody from its collection at the crime
scene through the point when the evidence was tested
by the crime lab. Defendant argued, however, the State
had not established the chain of custody for the return of
the evidence from the crime lab to the East Baton
Rouge Police Department's evidence room, [*34] after
the crime lab had tested the evidence. Specifically,
Louisiana State Police Crime Lab Technicians Marja
Porteus and Lindsey Corkerin Martrain had testified that
the evidence forms were missing signatures which
would indicate that the evidence was returned to the
sending agency. The State responded that the chain of
custody was adequate because it was complete through
the point that Ms. Naylor conducted the DNA testing,
which was the critical time, and that after the testing Ms.
Naylor had sealed the evidence, which remained sealed
until arriving in the [Pg 24] courtroom. The trial court
overruled defendant's objection without elaboration.
Here, defendant's contention that the chain of custody
was broken after the Louisiana State Police Crime Lab
conducted DNA testing on various items of evidence
does not warrant further attention. In conjunction with
the testimony establishing the chain of custody from the
crime scene through testing at the crime lab, Ms.
Naylor's testimony identifying the evidence envelopes
bearing her initials and the unbroken seals she placed
on the evidence after she had completed her testing are
sufficient to show that the evidence is what it purports
to [*35] be. We find defendant fails to show any error in
admitting the evidence and thus does not establish a
due process violation. This assignment of error is
without merit.

C. Erroneous denial of motion to quash indictment
as unconstitutionally vague (Defendant's
Assignment of Error 48)
Defendant contends the trial court erred by failing to
quash his indictment, because his indictment merely
tracked the language of the first-degree murder statute
and failed to provide defendant with adequate notice of
the factual basis for the charge. Defendant's indictment
on the envelopes containing penis swabs, oral swabs, anal
swabs, and a finger swab from the victim, as well as
envelopes containing swabs from defendant's cheek and
penis, swabs from a pair of grey Hanes underwear, and blood
samples from the victim. Ms. Naylor also identified her initials
on the seals, and confirmed that neither the seals nor the
envelopes had been altered since the envelopes left her
custody at the Crime Lab.

Erica Navalance

Pet. App. A 11

Page 12 of 45
2020 La. LEXIS 228, *35
states:
On this, the 27th day of June, 2007, the Grand Jury
of the Parish of East Baton Rouge, State of
Louisiana, charges that on or about the 14th day of
May, 2007, at and in the Parish, District and State
aforesaid, Dacarius Holliday committed the
offense of: First Degree Murder violating Louisiana
Revised State 14:30 on or about May 14, 2007, he
committed first degree murder of Darian Coon,
contrary to the law of the State of Louisiana and
against the peace and dignity of the same.
In reviewing the indictment, we find defendant was
properly charged in compliance with La.C.Cr.P. Art.
465(A)(31), which provides a short form indictment for
first-degree murder: "A.B. committed first degree [*36]
murder of C.D." State v. Manning, 03-1982, pp. 48-49
(La. 10/19/04), 885 So.2d 1044, 1089-90 (this Court
holding that it has consistently upheld the
constitutionality of the short form indictments, citing
State v. Baylis, 388 So.2d 713, 718-19 (La.1980) and
State v. Liner, 373 So.2d 121, 122 (La.1979). As a
result, we find this assignment of error [Pg 25] is without
merit.

D. Security Measures denied defendant due process
(Defendant's Assignments of Error 37, 38)
Defendant contends that the courtroom security
measures at his trial violated his right to due process
and that the trial court abdicated its duty by failing to
articulate a case-specific finding before permitting the
sheriff's department to restrain him during trial with a
knee brace and a shock belt.
Absent exceptional circumstances, a defendant before
the court should not be shackled, handcuffed, or garbed
in any manner destructive of the presumption of
innocence or detrimental to the dignity and impartiality
of the judicial proceedings. State v. Stephens, 412
So.2d 1057, 1059 (La. 1982); State v. Wilkerson, 403
So.2d 652, 659 (La. 1981). To find reversible error, the
record must show an abuse of discretion by the court
resulting in clear prejudice to the accused. Wilkerson,
403 So.2d at 659.
We note initially that, despite defendant's argument, the
record reflects that defendant expressly agreed on the
record to the court's security plan, and as a result, he
has waived this claim. Specifically, defendant filed [*37]
an "Omnibus Motion to Allow Mr. Holliday the Benefit of

the Presumption of Innocence," requesting that he be
permitted to wear civilian clothes during trial, that he not
be shackled at trial, and to limit the uniformed officers
inside and outside the courtroom. The court addressed
the motion at a hearing on October 15, 2008. The court
agreed to permit defendant to change into street clothes
during trial, but denied defendant's request to wear
street clothes during all other non-trial proceedings. The
court deferred ruling until trial on defendant's request to
limit courtroom security because courtroom security
needs were not yet clear. The court noted that the
security measures protect court staff, attorneys, and
members of the public, explaining that the courtroom
deputies and other safety measures were not
exclusively directed at [Pg 26] defendant.
During a subsequent motion hearing on February 23,
2010, the court addressed the plan for courtroom
security at trial to "make sure we have the record correct
as to what we discussed in chambers." Noting that the
plan had been negotiated during "the final pretrial status
conference that took place in chambers," the trial court
stated that [*38] defendant would wear a knee brace
and shock belt around his waist and under his clothes.
The court advised defendant that if he disrupted the
courtroom decorum (as he had done on prior pre-trial
occasions), he would be warned and the restraints
would be used. If defendant further disrupted
proceedings, the courtroom deputies would use their
taser guns as necessary to restore order, after which
defendant would be removed from the courtroom to a
secure room from which he could hear the proceedings
through a speaker. The trial court also explained that
per the courtroom's ordinary trial policy, two uniformed
deputies were to be stationed near defendant, and any
additional deputies would be plain-clothes officers. The
defense affirmed on the record that this was the plan
that was previously discussed, and that the defense had
no objection. Defendant now argues the court erred by
failing to issue a case-specific ruling justifying the use of
the restraints. However, it appears the court did not
issue such a ruling because defendant agreed to the
security plan. As such, defendant has waived this claim.
La.C.Cr.P. art. 841.19

19 La.

C.Cr.P. art. 841 provides:

A. An irregularity or error cannot be availed of after
verdict unless it was objected [*39] to at the time of
occurrence. A bill of exceptions to rulings or orders is
unnecessary. It is sufficient that a party, at the time the
ruling or order of the court is made or sought, makes

Erica Navalance

Pet. App. A 12

Page 13 of 45
2020 La. LEXIS 228, *39
Moreover, defendant wore the shock belt and knee
brace under his street clothing and therefore, they were
not visible to the jury. The record does not indicate that
[Pg 27] any juror would have been aware that defendant
was wearing concealed restraints or that defendant's
right to due process was violated. We find this
assignment of error is without merit.

III. Voir Dire and Related Jury Issues (Defendant's
Assignments of Error 15-28, 35, and 44)
The purpose of voir dire is to determine the
qualifications of prospective jurors by testing their
competency and impartiality and to assist counsel in
articulating intelligent reasons for exercising cause and
peremptory [*40] challenges. State v. Stacy, 96-0221,
p. 5 (La. 10/15/96), 680 So.2d 1175, 1178. The grounds
for which a juror may be challenged for cause are set
forth in La.C.Cr.P. art. 797 and La.C.Cr.P. art. 798.20
known to the court the action which he desires the court
to take, or of his objections to the action of the court, and
the grounds therefor.
B. The requirement of an objection shall not apply to the
court's ruling on any written motion.

In applicable part, jurors may be challenged if the juror
lacks a qualification [Pg 28] required by law, if the juror
is not impartial, whatever the cause of his partiality, and
if the juror will not accept the law as given by the court.
La.C.Cr.P. art. 797.
A trial court is vested with broad discretion in ruling on
challenges for cause and these rulings will be reversed
only when a review [*42] of the voir dire record as a
whole reveals an abuse of discretion. State v. Cross,
93-1189, p. 7 (La. 6/30/95), 658 So.2d 683, 686.
Prejudice is presumed when a trial court erroneously
denies a challenge for cause, and the defendant
ultimately exhausts his peremptory challenges. State v.
Robertson, 630 So.2d 1278, 1280 (La. 1994). Further,
an erroneous ruling depriving an accused of a
peremptory challenge violates his substantial rights and
constitutes reversible error. Cross, 93-1189 at 6, 658
So.2d at 686. "[A] challenge for cause should be
granted, even when a prospective juror declares his
ability to remain impartial, if the juror's responses as a
whole reveal facts from which bias, prejudice or inability
to render judgment according to law may be reasonably
implied." State v. Hallal, 557 So.2d 1388, 1389-90 (La.
1990).
Here, defendant exhausted his peremptory challenges

C. The necessity for and specificity of evidentiary
objections are governed by the Louisiana Code of
Evidence.
Per La.C.Cr.P. art. 798:
20 Per

La.C.Cr.P. art. 797:

The state or the defendant may challenge a juror for
cause on the ground that:
(1) The juror lacks a qualification required by law;
(2) The juror is not impartial, whatever the cause of his
partiality. An opinion or impression as to the guilt or
innocence of the defendant shall not of itself be sufficient
ground of challenge to a juror, if he declares, and the
court is satisfied, that he can render an impartial verdict
according to the law and the evidence;

It is good cause for challenge on the part of the state, but
not on the part of the defendant, that:
(1) The juror is biased against the enforcement of the
statute charged to have been violated, or is of the fixed
opinion that the statute is invalid or unconstitutional;
(2) The juror tendered in a capital case who has
conscientious scruples against the infliction of capital
punishment and makes it known:;
(a) That he would automatically vote against the
imposition of capital punishment without regard to
any evidence that might be developed at the trial of
the case before him;

(3) The relationship, whether by blood, marriage,
employment, friendship, or enmity between the juror and
the defendant, the person injured by the offense, the
district attorney, or defense counsel, is such that it is
reasonable to conclude that it would influence the juror in
arriving at a verdict;

(b) That his attitude toward the death penalty would
prevent or substantially impair him from making an
impartial decision as a juror in accordance with his
instructions and his oath; or

(4) The juror will not accept the law as given to him by the
court; or
(5) The juror served on the grand [*41] jury that found
the indictment, or on a petit jury that once tried the
defendant for the same or any other offense.

(c) That his attitude toward the death penalty would
prevent him from making an impartial decision as to
the defendant's guilt; or
(3) The juror would not convict upon circumstantial
evidence.

Erica Navalance

Pet. App. A 13

Page 14 of 45
2020 La. LEXIS 228, *42
and therefore need only show that the trial court abused
its discretion by denying his challenges for cause.
Robertson, 630 So.2d at 1281.

A. The trial court erred in allowing the State's
removal of black jurors under the "literacy
requirement." (Defendant's Assignments of Error
15-17)
Defendant argues that the trial court erroneously
permitted the State to exclude three black venire
members, Curtis Price, Latoya Causey, and Cortina
Hills for failure to satisfy the literacy requirement.
Defendant contends the literacy [*43] requirement
historically has been used as a tool of racial oppression,
and the jurors in question could read, write, and
understand English sufficiently to qualify for [Pg 29]
service under La.C.Cr.P. art. 401(A)(3).21 Defendant
asserts that their exclusion demonstrates the State's

21 La.

C.Cr.P. art. 401 provides:

A. In order to qualify to serve as a juror, a person must:
(1) Be a citizen of the United States and of this state who
has resided within the parish in which he is to serve as a
juror for at least one year immediately preceding his jury
service.
(2) Be at least eighteen years of age.
(3) Be able to read, write, and speak the English
language and be possessed of sufficient knowledge of
the English language.
(4) Not be [*44] under interdiction or incapable of serving
as a juror because of a mental or physical infirmity,
provided that no person shall be deemed incompetent
solely because of the loss of hearing in any degree.
(5) Not be under indictment for a felony nor have been
convicted of a felony for which he has not been pardoned
by the governor.
B. Notwithstanding any provision in Subsection A, a
person may be challenged for cause on one or more of
the following:
(1) A loss of hearing or the existence of any other
incapacity which satisfies the court that the challenged
person is incapable of performing the duties of a juror in
the particular action without prejudice to the substantial
rights of the challenging party.
(2) When reasonable doubt exists as to the competency
of the prospective juror to serve as provided for in Code
of Criminal Procedure Article 787.

use of the literacy requirement as an unconstitutional
pretext for racial discrimination. The State, in contrast,
argues that the voir dire record shows as a whole, the
jurors themselves, unprompted by direct questioning,
volunteered information as it relates to their struggles
with reading, writing, and understanding. The State
asserts the record establishes that the jurors in question
were not "possessed of sufficient knowledge of the
English language," and were thus unqualified to serve
as jurors in this capital case.
Curtis Price. Defendant argues the court erred by
granting the State's cause challenge as to Curtis Price,
because Price was competent to serve on the jury as
demonstrated by his ability to read aloud from the list of
aggravating circumstances. Furthermore, defendant
notes Price understood what "unanimous" meant once it
was explained to him, and as a result of Price's work as
a carpenter, [*45] he indicated he can use a tape
measure.
The transcript shows that as the prosecutor was
explaining the voir dire process, Price interjected "I don't
understand none of it. You know, even you be talking to
[Pg 30] me now I really don't understand what you are
really talking about. . . ." Price explained that he was
unable to follow or understand the proceedings and
legal concepts and that he had difficulty filling out the
questionnaire. Price also stated that he struggles with
reading and writing and, although he has limited vision,
he does not have glasses.
Initially, the State and defense presented a joint cause
challenge, citing Price's insufficient literacy as
demonstrated by his questionnaire. However, the
defense then withdrew its cause challenge, explaining
that despite his difficulty writing, Price could follow along
with the oral proceedings and appeared to be able to
read at least somewhat, since he had made an effort to
answer many questions on the questionnaire. The State
responded that Price had repeatedly expressed his
inability to understand voir dire. The judge declined to
rule initially, in order to continue to observe Price's
responses as voir dire proceeded. After doing [*46] so,
the court granted the State's cause challenge, as the
court did not "feel that he can understand the
proceedings that is going on."
Latoya Causey. After Price voiced his inability to
understand the questions and explanations provided in
voir dire, Causey raised her hand and also interjected
with the same complaint. In a sidebar, Causey
explained that she had "a hard time following" the

Erica Navalance

Pet. App. A 14

Page 15 of 45
2020 La. LEXIS 228, *46
questions during voir dire, and that she required
assistance with her juror questionnaire because she has
a "slow learning disability." Causey elaborated that she
lives with her parents, does not work, and has difficulty
with reading and writing. While in school, she was
assigned to the special education small-class resource
room because of her difficulty remembering and
understanding what she hears. Causey also indicated
she needs things repeated several times to understand
them, and she has trouble with "hard words." Causey
said she included that information in her questionnaire.
Causey stated that she could be fair, but "I could
understand the law, but the questions like half of the
words that I am hearing I am [Pg 31] not really
understanding them."
On the court's request, Causey was able to read [*47]
and answer aloud several questions from her
questionnaire, but was stumped by the word
"circumstances," which she could neither decipher nor
define. Causey responded affirmatively when asked
whether she "could be an independent juror in this
case," but further stated that she could not read medical
or lab reports.
The State challenged Causey for cause because she
could not understand the law and evidence. The
defense objected, arguing that it is not uncommon for
people to have difficulty with medical or lab reports and
Causey was able to read several questions from her
questionnaire. The court granted the State's cause
challenge after reviewing Causey's questionnaire and
confirming that the jury coordinator had provided
Causey with extensive assistance in completing her
questionnaire. Defendant contends this ruling was
erroneous because Causey was able to read several
questions from her questionnaire aloud in the
courtroom, demonstrating she had adequate command
and understanding of the English language to serve as
a juror.
Cortina Hills. Like Price and Causey, Hills raised her
hand to say she could not understand "[e]verything you
told me. I don't understand it. I am hard of
understanding. [*48] I dropped out at the eighth grade
so I really don't know that much." Hills explained that
she had never worked, and although she can write and
read to a limited extent, she did not understand most
questions on the questionnaire, such as: "A person
accused of a crime does not have to testify in his
defense and his silence may not be used against him.
How do you feel about that?"

The State thereafter challenged Hills for cause for the
same reasons as Causey and Price, and the defense
objected without elaboration. After a recess during
which the judge reviewed her questionnaire, the court
granted the State's cause challenge and excused Hills
because of her limited education and difficulty
understanding the [Pg 32] proceedings. Defendant
contends the trial court erred by granting the State's
cause challenge because Hills said she had not been
diagnosed with a learning disability, and she could
understand some legal concepts when they were
explained to her.
Our review of the voir dire record reveals no error by the
trial court in granting the State's challenges for cause
with respect to prospective jurors Price, Causey, and
Hills. Here, each of the jurors in question demonstrated
exceptional [*49] difficulty following along with the voir
dire proceedings and were unable to complete their
juror questionnaires independently. While they may
have been able to complete portions of their
questionnaires or read short passages with direct
assistance, we find the trial court did not err by ruling
Price, Causey, and Hills were not competent to serve as
jurors due to their inability to independently understand
the trial proceedings. Additionally, as the State points
out in a footnote in their brief, both Hills and Causey
stated that they could not consider the death penalty, so
they also would have been subject to a cause challenge
on those grounds. Although defendant provides a
lengthy history of the literacy requirement's use as a tool
of racial oppression,22 we do not find any indication that
the literacy requirement was used as a proxy for racial
discrimination in this case, or that the trial court
otherwise erred by excusing these venire members for
cause. This assignment of error is without merit.

B. The trial court erred in granting cause challenges
against jurors who demonstrated they could
consider a death sentence. (Defendant's
Assignments of Error 18-20)
The legal standard for determining [*50] whether a
prospective juror may be excluded for cause because of
his views on capital punishment is whether his views

22 Defendant

relies upon the United States Supreme Court's
discussion of this issue in Shelby v. Holder, 570 U.S. 529, 133
S.Ct. 2612, 186 L.Ed.2d 651 (2013), as well as South Carolina
v. Katzenbach, 383 U.S. 301, 309, 86 S.Ct. 803, 15 L.Ed.2d
769 (1966).

Erica Navalance

Pet. App. A 15

Page 16 of 45
2020 La. LEXIS 228, *50
would "prevent or substantially impair the performance
of his duties as a juror in [Pg 33] accordance with his
instructions and his oath." Witherspoon v. Illinois, 391
U.S. 510, 88 S.Ct. 1770, 20 L.Ed.2d 776 (1968) (holding
that a prospective juror who would vote automatically for
a life sentence is properly excluded); see also
Wainwright v. Witt, 469 U.S. 412, 424, 105 S.Ct. 844,
852, 83 L.Ed.2d 841 (1985); State v. Sullivan, 596
So.2d 177 (La. 1992), rev'd on other grounds, Sullivan
v. Louisiana, 508 U.S. 275, 113 S.Ct. 2078, 124 L.Ed.2d
182 (1993). In a "reverse-Witherspoon" context, the
basis of the exclusion is that a prospective juror "will not
consider a life sentence and . . . . will automatically vote
for the death penalty under the factual circumstances of
the case before him." State v. Robertson, 92-2660 (La.
1/14/94), 630 So.2d 1278, 1284.23 Jurors who cannot
consider both a life sentence and a death sentence are
"not impartial" and cannot "accept the law as given . . .
by the court." La.C.Cr.P. art. 797(2) , (4)24 ; State v.

23 The

"substantial impairment" standard applies to reverseWitherspoon challenges. In Morgan v. Illinois, 504 U.S. 719,
738-39, 112 S.Ct. 2222, 2234-35, 119 L.Ed.2d 492 (1992), the
Supreme Court held that venire members who would
automatically vote for the death penalty must be excluded for
cause, reasoning that any prospective juror who would
automatically vote for death would fail to consider the
aggravating and mitigating circumstances and thus violate the
impartiality requirement of the Due Process Clause. Id. at 728,
112 S.Ct. at 2229. The Morgan Court adopted the Witt
standard for determining if a pro-death juror should be
excused for cause.
24 La.

C.Cr.P. art. 797 provides:

The state or the defendant may [*51] challenge a juror
for cause on the ground that:
(1) The juror lacks a qualification required by law;
(2) The juror is not impartial, whatever the cause of his
partiality. An opinion or impression as to the guilt or
innocence of the defendant shall not of itself be sufficient
ground of challenge to a juror, if he declares, and the
court is satisfied, that he can render an impartial verdict
according to the law and the evidence;
(3) The relationship, whether by blood, marriage,
employment, friendship, or enmity between the juror and
the defendant, the person injured by the offense, the
district attorney, or defense counsel, is such that it is
reasonable to conclude that it would influence the juror in
arriving at a verdict;
(4) The juror will not accept the law as given to him by the
court; or

Maxie, 93-2158, p. 16 (La. 4/10/95), 653 So.2d 526,
534-35. In other words, if a prospective juror's views on
the death penalty, as indicated by the totality of his
responses, would "prevent or substantially impair the
performance of their duties in accordance with their
instructions or their oaths," whether those views are for
or against the death penalty, he or she should be [Pg
34] excused for cause. State v. Taylor, 99-1311, p. 8
(La. 1/17/01), 781 So.2d 1205, 1214; State v. Hallal,
557 So.2d 1388, 1389-90 (La. 1990).
Although the accused is entitled to full and complete voir
dire, La. Const. Art. I, § 17, the scope of counsel's
examination rests within the sound discretion of the trial
judge, and voir dire rulings will not be disturbed on
appeal absent a clear abuse of that discretion.
La.C.Cr.P. art. 786 [*52] ; State v. Cross, 93-1189, pp.
6-7 (La. 6/30/95), 658 So.2d 683, 686-87; State v.
Robertson, 92-2660 (La. 1/14/94), 630 So.2d 1278,
1280. The right to a full voir dire does not afford the
defendant unlimited inquiry into possible prejudices of
prospective jurors, i.e., their opinions on evidence or its
weight, hypothetical questions, or questions of law that
call for prejudgment of facts in the case. State v. Ball,
00-2277, p. 23 (La. 1/25/02), 824 So.2d 1089, 1110.
Rather, Louisiana law provides that a party interviewing
a prospective juror may not ask a question or pose a
hypothetical which would demand the juror's precommitment or pre-judgment as to issues in the case.
Id.; see, e.g., State v. Williams, 230 La. 1059, 1078, 89
So. 2d 898, 905 (La. 1956) ("It is not proper for counsel
to interrogate prospective jurors concerning their
reaction to evidence which might be received at trial.");
State v. Smith, 216 La. 1041, 1046-47, 45 So.2d 617,
618-19 (La. 1950) ("[H]ypothetical questions and
questions of law are not permitted in the examination of
jurors which call for a pre-judgment of any supposed
case on the facts."); Ball, 00-2277, p. 23, 824 So.2d at
1109-10 (trial court correctly forbids questions the
evident purpose of which is to have a prospective juror
pre-commit to certain views of the case); see also State
v. Parks, 324 N.C. 420, 378 S.E.2d 785 (N.C. 1989)
("Jurors may not be asked what kind of verdict they
would render under certain named circumstances.");
Jahnke v. State, 682 P.2d 991, 1000 (Wyo. 1984) (court
properly refused questions that were "patent requests to
obtain the reaction of potential jurors to the appellant's
theory of defense."), vacated on other grounds, Vaughn

(5) The juror served on the grand jury that found the
indictment, or on a petit jury that once tried the defendant
for the same or any other offense.

Erica Navalance

Pet. App. A 16

Page 17 of 45
2020 La. LEXIS 228, *52
v. State, 962 P.2d 149, 151 (Wyo. 1998).
[Pg 35] While this Court's jurisprudence clearly provides
that counsel may not detail the circumstances of the
case and then ask jurors to commit themselves to a
particular verdict in advance of trial, the Court has also
squarely held that a juror who knows enough about the
circumstances of the case to realize that he or she will
be unable to return a sentence of death is not
competent to sit as a juror, although the juror may also
express an abstract ability to consider both death and
life sentences. State v. Williams, 96-1023 (La. 1/21/98),
708 So.2d 703;25State v. Comeaux, 514 So.2d 84 (La.
1986). Thus, counsel must tread carefully while seeking
to elicit whether a prospective juror is capable of
remaining impartial in the case at hand to the extent that
counsel makes any references to what he anticipates
the evidence will show.
Here, defendant contends the trial court erred by
granting the state's Witherspoon challenges against
Celestine Kooney, Gussie Coleman, and Linda Griffin
because their answers showed they could consider a
death sentence.
Celestine Kooney. Defendant asserts the trial court
erred by granting the State's cause challenge against
Celestine Kooney because Kooney stated that although
she [*53] would be uncomfortable imposing a death
sentence, she would consider the death penalty if
necessary. A review of the transcript shows that Kooney
raised her hand when the court asked whether any
panel members would be unable to consider imposing
the death penalty. The following exchange transpired:
COURT: Okay. You couldn't consider the death
penalty?

25 In

Williams, this Court held that "when a potential juror
indicates his or her attitude regarding the mitigating
circumstances would substantially impair his or her ability to
return a death penalty, then that juror is properly excludable
for cause," and the Court found further that, after a full reading
of voir dire, two prospective jurors who initially indicated
theoretical support for the death penalty ". . . .could not have
returned a death verdict because of the defendant's age" and
were therefore unfit to serve on a capital jury. Specifically, one
juror indicated she "would have a very hard time saying [the
death penalty] was appropriate," and that it would "'bother' her
to return a death verdict against an 18-year-old defendant."
The other expressed few reservations about the death penalty
in general, but later indicated that "'. . . . if they're young, to
me, I think they should get life, not the death penalty.'"
Williams, 96-1023, pp. 8-10, 708 So.2d at 712-14.

KOONEY: I don't want to be responsible for making
that decision.
COURT: So, under any circumstances you would
not be able to consider the death penalty?
[Pg 36] KOONEY: I don't think so; no.
COURT: Okay. Well, when you say you don't think
so; meaning, would you be able to listen to the
evidence that's put forth by the state and, if the
defense chose to put any evidence forth, would you
be able to listen to that evidence and then make a
determination rather [sic] or not you feel the
defendant should receive death -- should receive
the death penalty or life imprisonment?
KOONEY: I think if—I mean, if I absolutely had to, I
mean, I would have to be impartial. But I don't think
I could live with myself and make that decision. It's
not something I'm comfortable doing.
COURT: But if you had to consider it, you would
consider the death penalty?
KOONEY: [*54] I guess I would have to.
When questioned further, Kooney explained her final
response to the judge's questions as affirming that she
understood that if chosen as a juror she "would have to
make that decision" but stated her "viewpoint would
influence [her] decision." Kooney verified that she does
not "believe in the death penalty in the abstract" and
that her beliefs regarding the death penalty "would
impair" her ability to vote for the death sentence.
Defendant stresses that Kooney stated "I can't say that I
would automatically—that my mind would be made up."
However, he fails to note that Kooney concluded that
statement with "[b]ut, I think I would definitely be
influenced by the belief that I have about the death
penalty" which would substantially impair her ability to
impose it.
The State challenged Kooney for cause, and the
defense objected, arguing that Kooney indicated she
could consider the death penalty. The court called
Kooney for further questioning on whether she could
consider imposing a death sentence if she felt it was the
appropriate penalty in this case. Kooney answered: "I
don't think I could do that. My responsibility—I—I don't
know if I could make that decision." [*55] Further in
response to the court's question, she replied, "I don't
know if I would say [Pg 37] I would automatically [vote
for life]" but that "it would be difficult for me to make that
decision to end somebody's life." When pressed by the
court, Kooney ultimately concluded that "[i]f I have to
say yes or no, then I would have to go with no, I couldn't
consider it." In light of this exchange, we find the trial

Erica Navalance

Pet. App. A 17

Page 18 of 45
2020 La. LEXIS 228, *55
court did not err in granting the State's cause challenge
as to prospective juror Kooney.
Gussey Coleman. Defendant contends the court erred
by striking Coleman because although she admitted that
she would be uncomfortable imposing a death
sentence, she repeated multiple times that she would be
able to consider it.
Contrary to defendant's position, Coleman was clear
that she opposed the death penalty.26 When the State
asked juror Coleman about her feelings regarding the
death penalty, she voiced uncertainty about whether
she would be able to vote for death and concluded "I
have thought about it in the past and I always said, oh
no; I couldn't do that. But then we're here and we have a
duty and I just don't know." She stated in part:
I'm not in favor of [the death penalty] and I do [*56]
know there are situations where it has happened.
But, just to say I am in favor of somebody dying, it
doesn't matter what they did or how they did it, it's
just not something I, in my heart, is in favor of. But I
do understand the law of the land and the laws
were set up for a certain reason. I do understand
that. But, whether or not when I am at that point, I
don't know.
Id.
When asked if she could vote for death, she replied, "I
just don't know how I could do that. I really don't," and
when asked yet again if she could vote for it if she
thought it was appropriate, Coleman replied, "No, I'm
not sure I could do that." During the defense's
examination of Coleman, counsel asked her if she could
conclude what an appropriate sentence is, in her mind,
and impose that life or death sentence. She answered
affirmatively.
[Pg 38] The State challenged Coleman for cause,
arguing that she indicated she could not impose the
death penalty. Although she had answered affirmatively
when the defense asked, "could she consider the
evidence, could she consider life and death, and then . .
. determine what the appropriate penalty is . . . and then
impose that penalty," the State asserted this question
did [*57] not rehabilitate Coleman because the defense
never asked "if you find the death penalty to be

26 Although

the defendant quotes some of the voir dire
transcript in his brief, the record reflects Coleman made
numerous additional statements indicating she would not be
able to vote for the death penalty.

appropriate could you impose it?"
The defense countered by arguing that as required by
the law, Coleman had answered that she could consider
both life and death and impose the sentence she
determined to be appropriate. Defendant argues that the
State's position—that jurors must agree they could
impose the death penalty—was an improper outcomedeterminative statement, according to the defendant.
After the State pointed out that Coleman previously said
she could not impose the death penalty even if she
believed it was the appropriate penalty, the judge further
questioned Coleman:
COURT: If you felt that the death penalty was the
appropriate sentence, based on all of the evidence
that's presented, could you vote to impose the
death penalty?
COLEMAN: No.
COURT: Under no circumstances would you be
able to vote to impose the death penalty?
COLEMAN: No.
COURT: But you would listen to all the evidence
that's presented in the case, ma'am?
COLEMAN: Yes.
The court then granted the State's cause challenge and
dismissed Coleman.
Here, the transcript reflects that Coleman clearly,
unequivocally, and repeatedly stated [*58] she could
not impose the death penalty, even if she believed it to
be the appropriate penalty. As such, we find the trial
court did not err by granting the State's cause challenge
as to prospective juror Coleman.
[Pg 39] Linda Griffin. Defendant claims the trial court
erred by granting the State's cause challenge against
Linda Griffin, because Griffin stated she could be a fair
juror and that while she would struggle with the death
penalty, she would strongly consider sentences of both
life imprisonment and death.
The transcript reveals that when the State first asked
the panel whether there was anyone who could not or
would not consider all mitigating and aggravating
evidence before deciding whether to impose a sentence
of life imprisonment or the death penalty, Linda Griffin
raised her hand. She explained that, "[y]es, I would be
able to listen to the information that's presented, but I
would honestly struggle with the imposition of the death
penalty. That would—I know that would be an issue for
me." Griffin's answers to the State's follow-up questions
included: "Well—I'm not convinced that the death
penalty is the final, is the finality. I strongly—I know that

Erica Navalance

Pet. App. A 18

Page 19 of 45
2020 La. LEXIS 228, *58
it's imposed and it's [*59] been carried out, carried out
in our country, but I do not believe that I could vote for a
death penalty." She also stated:
Well, I just can't say that—even though, record-wise
or evidential-wise, may show that it's a sentence,
but I'm not sure that I can say that it is the sentence
because, straight out, I'm not a proponent of the
death penalty . . . . But, I will, I am capable [of
listening to the evidence]. I know that I am capable
of listening. But to impose the death penalty would
be an issue for me.
Griffin affirmed that she has a "strong opposition to the
death penalty," explaining "[w]ell, I can consider
listening to the information that's presented, and yes, I
could consider it, but as I indicated earlier because of
my feelings or opinions as it relates to the death penalty
I would have a struggle with imposing that as a penalty."
The State issued a cause challenge as to Griffin on the
grounds that her beliefs about the death penalty would
substantially impair her ability to make an impartial
decision, per
La.C.Cr.P. art. 798(2)(b).27 As with
Coleman, the defense argued that [Pg 40] Griffin had
answered that she could consider both life and death
and impose what she believed to be the appropriate
sentence. [*60] Because she had not specifically

27 La.

C. Cr.Pr. art. 798 provides:

It is good cause for challenge on the part of the state, but
not on the part of the defendant, that:
(1) The juror is biased against the enforcement of the
statute charged to have been violated, or is of the fixed
opinion that the statute is invalid or unconstitutional;
(2) The juror tendered in a capital case who has
conscientious scruples against the infliction of capital
punishment and makes it known:
(a) That he would automatically vote against the
imposition of capital punishment without regard to any
evidence that might be developed at the trial of the case
before him;
(b) That his attitude toward the death penalty would
prevent or substantially impair him from making an
impartial decision as a juror in accordance with his
instructions and his oath; or
(c) That his attitude toward the death penalty would
prevent him from making an impartial decision as to the
defendant's guilt; [*62] or
(3) The juror would not convict upon circumstantial
evidence.

answered whether she could impose the death penalty if
she believed it was appropriate, the court called Griffin
for further questioning. Griffin answered that she could
consider both the death penalty and a sentence to life
imprisonment, after she had listened to all the evidence
as well as the aggravating and mitigating
circumstances. However, when asked whether she
could impose the death penalty if she felt it was the
most appropriate sentence, Griffin replied:
GRIFFIN: I would still—I would have—I would
consider it. I would strongly consider it, but I know
that I would struggle with agreeing to a death
sentence.
COURT: When you say struggle with agreeing to a
death sentence, what do you mean by that, ma'am?
GRIFFIN: I mean if—I mean if that—if the death
penalty was, I guess, the outcome, then I would—I
would consider everything that has been presented
and I would consider it and I'm not going to say one
hundred percent but I know that I would still have a
problem with imposing the death penalty.
COURT: So you are telling me that even if you felt
that the death penalty was the appropriate penalty,
you could not impose, you could not vote to impose
the [*61] death penalty?
GRIFFIN: Yes, that's what I'm saying.
COURT: But can you sit and listen to all the
evidence that's presented in the case?
[Pg 41] GRIFFIN: Yes, I can.
COURT: Take in all the aggravating and all the
mitigating circumstances or factors that may or may
not - that may be presented in the case?
GRIFFIN: Yes.
The court then dismissed Griffin and granted the State's
cause challenge without further comment. Despite
defendant's arguments to the contrary, our review of the
record reveals Griffin consistently expressed an inability
or unwillingness to impose the death penalty, and her
final response on individual questioning was that she
could not vote to impose the death penalty.
Consequently, we find the trial court did not err by
granting the State's cause challenge as to prospective
juror Griffin.

C. The trial court erred by granting the State's cause
challenges to jurors whose voir dire reflected that
they would be fair, unbiased, and fully qualified to
serve on defendant's jury. (Defendant's
Assignments of Error 21-22)

Erica Navalance

Pet. App. A 19

Page 20 of 45
2020 La. LEXIS 228, *61
Defendant asserts that under La.C.Cr.P. art. 797, the
trial court erred by granting the State's cause challenges
to prospective jurors Adam Edmunson and Jessica
Starns, arguing that the totality of voir dire revealed they
could
consider
aggravating
and
mitigating
circumstances, both life and death sentences, and that
they had made no pre-determined decision about
defendant's case.
Adam
Edmunson.
According
to
defendant,
prospective [*63] juror Adam Edmunson voiced
reservations about convicting a defendant entirely on
the basis of circumstantial evidence but that he would
consider both sides fairly.
The record shows that the State challenged Edmunson
because he said he could not convict based strictly
upon circumstantial evidence. The court summoned him
twice for further questioning after extensive discussion
between the court and the parties regarding the
appropriate standard for consideration of circumstantial
evidence. The first time he approached the bench,
Edmunson explained that if the [Pg 42] case were
entirely circumstantial, it would be difficult for him to
conclude the State had proven the case beyond a
reasonable doubt. The second time the court called
Edmunson, he answered "[i]t's my belief I could find the
defendant guilty based on circumstantial evidence if
every reasonable hypothesis of innocence has been
disproved." However, Edmunson then stated that he
was not sure he could, because he "struggle[s] with
'every reasonable hypothesis of innocence,'" specifically
emphasizing the word "every." After dismissing
Edmunson, the court granted the State's cause
challenge, stating:
Based on Mr. Edmonson's [sic] [*64] response to
the court and his hesitation in answering the
question to the court, and his body language in
responding to the court, the court does not believe
that Mr. Edmonson [sic] would be able to convict on
circumstantial evidence.
Given Edmunson's consistent and ongoing reservations
about convicting on the basis of circumstantial evidence,
we find the trial court did not abuse its discretion in
granting the State's cause challenge. See La.C.Cr.P.
art. 798(3) (refusal to convict upon circumstantial
evidence is grounds for a cause challenge by the state).
Jessica Starns. Defendant argues that the court erred
by granting the State's cause challenge against Jessica
Starns on the grounds that Starns had violated the

court's sequestration order by discussing the case with
others. Defendant contends that Starns expressed her
ability to be a fair and impartial juror despite her outside
knowledge of the case, and the court's reasons for
granting the cause challenge are not grounds for a
cause challenge under La.C.Cr.P. art. 797.
The transcript shows that Starns disclosed in a sidebar
discussion that she had seen media coverage of the
case and that her boyfriend, who works at East Baton
Rouge Parish Prison, had told her defendant's [*65]
behavior as an inmate is "a problem." Subsequently,
another prospective juror, Matthew Chaisson, disclosed
in a bench conference that Jessica Starns, with whom
he was good friends, had discussed the case with him
and told him the prosecution involved the killing of a
child. Initially, [Pg 43] the defense issued cause
challenges against both Starns and Chaisson, but the
court deferred ruling on the challenges until the
conclusion of the death qualification questioning.
After questioning the panel regarding their views on the
death penalty, the State issued a cause challenge
against Starns on the grounds that she was opposed to
the death penalty, and because she had read articles
about the case, discussed the case with her boyfriend
who worked at the parish prison, and discussed the
case with prospective juror Matthew Chaisson. Although
the defense had not withdrawn its previously-issued
cause challenge against Starns because of her pre-trial
exposure to the case, the defense objected to the
State's cause challenge on those grounds and argued
that Starns stated she could consider the death penalty
if appropriate. The trial court granted the State's cause
challenge, ruling:
My one concern [*66] about Ms. Starns is that she
did not mention to the court that she knew Mr.
Chaisson, or not so much she knew him, but she
had stated something to Mr. Chaisson in reference
to this trial. So looking at the totality, I'm not certain
Ms. Starns is being totally forthcoming with the
court about all her communication and contact and
know [sic] about any—as it relates to this particular
case. I won't accept the challenge for cause of
death, but for other reasons, the court will accept
the challenge for cause on Ms. Starns.
Our review of the transcript establishes the trial court did
not abuse its discretion in granting the cause challenge
against Starns. Although Starns stated that she could be
a fair juror, she also informed the court that she had
heard personal, outside, extremely negative information

Erica Navalance

Pet. App. A 20

Page 21 of 45
2020 La. LEXIS 228, *66
about defendant and his conduct in parish prison from
her boyfriend, and she had shared that information with
another member of the venire. We find the trial court
properly granted the State's cause challenge in this
instance. See La.C.Cr.P. art. 787.28
[Pg 44] D. The trial court abused its discretion in
denying the defendant's cause challenges to jurors
who would not consider relevant mitigating
circumstances. [*67] (Defendant's Assignments of
Error 23-27)
Defendant argues the court erred by denying
defendant's cause challenges to prospective jurors
Robert Lambert, Joseph Carlock, Eric Mitchen, Keri
Jackson-Parker, and Gayle Davis, asserting that they
were unwilling to consider specific unenumerated
mitigating circumstances which are not found in La. C.
Cr.Pr. art. 905.5.29
Robert Lambert. The defense challenged Robert
Lambert for cause, arguing that Lambert stated that he

28 La.

C.Cr.P. art. 787 provides: "The court may disqualify a
prospective petit juror from service in a particular case when
for any reason doubt exists as to the competency of the
prospective juror to serve in the case."
29 La.C.Cr.P.

art. 905.5 provides:

The
following
circumstances:

shall

be

considered

mitigating

(a) The offender has no significant prior history of criminal
activity;
(b) The offense was committed while the offender was
under the influence of extreme mental or emotional
disturbance;
(c) The offense was committed while the offender was
under the influence or under the domination of another
person;
(d) The offense was committed under circumstances
which the offender reasonably believed to provide a
moral justification or extenuation for his conduct;
(e) At the time of the offense the capacity of the offender
to appreciate the criminality of his conduct or to conform
his conduct to the requirements of law was impaired as a
result of mental disease or defect or intoxication;
(f) The youth of the offender at the time of the offense;
(g) The offender was a principal whose participation was
relatively [*68] minor;
(h) Any other relevant mitigating circumstance.

could not consider "any other relevant mitigating factor."
The State objected, noting, "[y]our honor, he could fully
consider (a) through (g). And (h) is left to the juror's
discretion. If they find it to be a relevant mitigating
circumstance they consider it; if they don't, they don't.
He certainly indicated he would consider all the statutory
mandated mitigating circumstances." The trial court
responded, initially noting that prospective juror Lambert
stated he could consider the statutory mitigating factors,
and further, section (h) of La. C.Cr.P. art. 905.5 is
exclusive to mitigating factors presented by the defense.
After additional argument, the court brought Lambert
back for more questioning:
COURT: Mr. Lambert, in the event that you are
chosen to serve on this particular trial as has been
explained to you, there is a potential for this trial to
be in two phases, the first phase [Pg 45] being the
guilt phase. And if and only if the jury finds by
unanimous vote that the defendant is guilty of first
degree murder, we go to the second phase, which
is [*69] the penalty phase. In the penalty phase,
the aggravating factors that was [sic] listed on the
board that comes out of the Code of Criminal
Procedure 905.5, that A through H. Do you need to
see them again, sir, or do you remember?
LAMBERT: I remember it, yeah.
COURT: Would you be able to consider those
factors as mitigating factors to determine whether
or not a life imprisonment sentence should be
imposed or a death sentence should be imposed?
LAMBERT: Sure. I think the question was - may I
just say, I think the last one they listed on the list
was kind of like an open-ended one, whatever they
would bring up.
COURT: Yes, sir.
LAMBERT: I might consider it, but I think Mr.
Kroenke brought up a few that I didn't think was
relevant to me, okay. I don't know if I answered that
question, but the open-ended one, I guess is
whatever they brought up. But that was three that I
didn't agree with.
COURT: But outside of what Mr. Kroenke may have
brought up, that H, kind of like the catch-all one—
LAMBERT: Correct.
COURT: —would you keep an open mind and listen
to all the evidence that's presented in the guilt
phase—I mean, I'm sorry, in the penalty phase, and
even in the guilt phase, if we get to the penalty
phase, and any relevant factor [*70] that you deem
is mitigating, would you consider that to be

Erica Navalance

Pet. App. A 21

Page 22 of 45
2020 La. LEXIS 228, *70
mitigating and base your decision on voting for life
or death after you have considered not only what A
through G says, but also H in terms of any other
factors that you deem are relevant to mitigate?
LAMBERT: Yeah, I could.
COURT: Okay. All right. And you wouldn't — would
you make up your mind as to the death penalty
prior to the conclusion of all the evidence and
testimony given in the penalty phase, if we get to
that phase?
LAMBERT: I would listen to it all.
COURT: Before making up your mind in terms of
what to vote for?
[Pg 46] LAMBERT: That's correct.
The court thereafter denied the cause challenge, and
the defense objected.
Joseph Carlock. The defense immediately challenged
Joseph Carlock on the same grounds as Lambert,
similarly because Carlock "could not consider any other
factor, any other relevant mitigating factor" beyond the
enumerated factors. The State objected to the
defendant's challenge, and the trial court denied the
challenge for cause, ultimately finding prospective juror
Carlock indicated he could consider all the statutory
mitigating factors that he deemed relevant.
Eric Mitchen. Eric Mitchen initially stated [*71] that he
would consider all of the enumerated mitigating factors.
During defense questioning, Mitchen stated he did not
think he could consider a harsh or abusive childhood as
mitigation because he had family members who came
from abusive homes but were not, themselves, abusive.
Mitchen said that depending on the specific
circumstances, he could consider a suicide attempt as
mitigating. When asked whether he would consider
"having mental disorders" as mitigating, Mitchen stated
that it would be difficult for him because he believed
mental illness is used as an excuse to justify behavior;
he himself received a mental health diagnosis, as did
other family members, and thus, he doubted that he
would "buy it."
The defense challenged Mitchen for cause due to his
unwillingness to consider abuse as a mitigating factor.
The State objected on the grounds that Mitchen stated
he would consider all enumerated mitigating
circumstances. The trial court denied the defense's
cause challenge, finding Mitchen agreed to consider any
other relevant mitigating circumstance.
Keri Jackson-Parker. Defendant finally contends the
trial court erred by failing to grant a cause challenge for

Keri Jackson-Parker because [*72] she indicated that
she could not consider any mitigating factors. The court
brought Jackson-Parker back for additional questioning
after defendant issued the cause challenge, and asked
[Pg 46] whether she could consider mitigating
circumstances in determining whether to sentence
defendant to life or death. The following exchange took
place between the court and prospective juror JacksonParker:
COURT: No. Let me understand what—make sure I
understand when you say, change your mind. Are
you saying, if the defendant is found guilty of first
degree murder—
JACKSON-PARKER: Uh-huh.
COURT: —then your mind is going to be made up,
at that point, that he should receive the death
penalty?
JACKSON-PARKER: No, sir.
COURT: Okay. So, if you—you have already voted
guilty on first degree murder—
JACKSON-PARKER: Uh-huh.
COURT: —can you promise this court that the next
day when the guilt—I mean when the penalty phase
starts — that you are not going to have a
preconceived notion that this defendant should get
a death sentence, or a life sentence?
JACKSON-PARKER: Correct.
COURT: You will listen to the evidence that comes
from this witness stand and determine whether or
not
the
state
has
proved
aggravating
circumstance [*73]
[sic] and any mitigating
circumstance that you feel are mitigating—
JACKSON-PARKER: Yes.
COURT: —you would consider those and
determine whether or not to impose a life sentence
or a death sentence?
JACKSON-PARKER: Yes, sir.
COURT: And—and one more thing on mitigating.
JACKSON-PARKER: Uh-huh.
COURT: Are you telling me that for mitigating
circumstances that you will listen to all of them
that's presented and—and determine which one or
which ones you deem is appropriate mitigating
circumstances for this particular case?
JACKSON-PARKER: Yes. Yes, sir.
[Pg 48] COURT: So, you wouldn't—so, you would—
so, you would consider mitigating circumstances,
but some of them you may not deem satisfactory
enough for you to vote—
JACKSON-PARKER: Exactly; Yes, sir.
COURT: —to vote for—for life? Is that what you—
JACKSON-PARKER: Yes, sir.

Erica Navalance

Pet. App. A 22

Page 23 of 45
2020 La. LEXIS 228, *73
COURT: All right. Okay.
Upon further questioning by the State and defense,
Jackson-Parker answered that she could meaningfully
consider factors such as a brutal childhood, abusive
parents, alcoholic parents, and mental disorders. The
trial court denied the defendant's cause challenge, ruling
as follows:
[b]ased on Ms. Parker's answer to the court, to the
State, and to the defense, [*74] the court feels like
her answers were that she could consider
mitigating factors; some she may not believe to be
enough to change her mind one way or another, but
she would consider all mitigating factors and the
court is not going to excuse her for cause.
In this instance, we find the defendant fails to show the
trial court abused its discretion in denying these cause
challenges. See State v. Blank, 04-0204, p. 25 (La.
4/11/07), 955 So.2d 90, 113, citing State v. Cross, 931189 (La. 6/30/95), 658 So.2d 683, 686-687 ("A trial
court is vested with broad discretion in ruling on
challenges for cause, and these rulings will only be
reversed when a review of the voir dire record as a
whole reveals an abuse of discretion."). Although the
challenged individuals did not promise to accord a
specific weight to the particular unenumerated factors
defendant proposed, each stated that they could
consider, or contemplate, all of the enumerated
mitigating factors of La.C.Cr.P. art. 905.5, and further,
they each appropriately indicated they would consider
any other mitigating factor they deemed relevant for
purposes of La.C.Cr.P. art. 905.5(h).30

30 See

generally Eddings v. Oklahoma, 455 U.S. 104, 102
S.Ct. 869, 71 L.Ed.2d 1 (1982) (as cited in Nelson v.
Quarterman, 472 F.3d 287, 295 (5th Cir. 2006)) (the Court
rejecting a state appellate court's application of a heightenedrelevance standard to the mitigating evidence, noting that
while the sentencer can "determine the weight to be given
relevant mitigating evidence," the sentence "may not give it no
weight by excluding such evidence from [its] consideration." Id.
at 115, 102 S.Ct. 869); See also, Heiney v. Florida, 469 U.S.
920, 105 S.Ct. 303, 83 L.Ed.2d 237 (1984) (Brennan, J.,
dissenting, noting that "Eddings and Lockett [438 U.S. 586, 98
S.Ct. 2954, 57 L.Ed.2d 973 (1978)] entitle a defendant to a
sentencer who can consider all mitigating circumstances,
whether or not they conform to traditional legal categories. The
weight assigned to any element can only be a function of the
values of the community, for certainly there is no 'objective'
formula. Once a mitigating circumstance is considered,
assigned weight, and determined to be sufficient to preclude
death, the Constitution should allow no "superior" authority to

[Pg 49] We note that there is a distinction between
considering a factor and determining what weight, if any,
to give that particular listed factor. In other words, for
purposes of La. C.Cr.P. art. 905.5, to "consider" [*75]
something requires a juror to focus or reflect upon a
mitigating factor but does not dictate their arriving at a
particular conclusion. Here, rather recognizing that
jurors would "think carefully" about the mitigating
factors, defendant appears to be seeking a commitment
from these jurors to grant special consideration to the
mitigating factors he would be presenting. Such an
interpretation of La. C.Cr.P. art. 905.5 is prohibited. Cf.
Williams, 96-1023, pp. 8-10, 708 So.2d at 712-14 (citing
State v. State v. Bourque, 622 So.2d 198, 227
(La.1993), rev'd on other grounds by, State v. Comeaux,
93-2729 (La.7/1/97), 699 So.2d 16, the Court finding
that when determining whether or not a juror should be
dismissed for cause, the trial judge should consider the
potential juror's answers as a whole and not merely
consider "correct" answers in isolation.) Upon our review
of the entire voir dire process in this case, we do not find
any reversible error in the trial court's rulings in this
regard.31

E. The defendant was denied his right to a jury
drawn from a fair-cross-section of the community
and therefore suffered an Equal Protection violation.
(Defendant's Assignments of Error 28, 29)
In these assignments of error, defendant asserts he was
denied a jury comprised of a fair-cross-section of his
community in violation of his constitutional [*76] and
[Pg 50] statutory rights, arguing that black men are
systematically under-represented in East Baton Rouge
Parish jury pools. He contends that black men constitute
a distinct group for purposes of the United States
Supreme Court's three-part test found in Duren v.
Missouri32 because of "their shared experiences and
attitude and their immutable characteristics." He argues

remove that circumstance from the equation to impose
death.")
31 We

find defendant's claim regarding Gayle Davis is moot.
Although the trial court denied defendant's cause challenge
because of her reluctance to consider mitigating
circumstances, the trial court later granted defendant's cause
challenge as to Davis on the grounds that she would want a
defendant to testify in his own defense and because she has a
"passion for kids."
32 Duren

v. Missouri, 439 U.S. 357, 364, 99 S.Ct. 664, 668, 58
L.Ed.2d 579 (1979).

Erica Navalance

Pet. App. A 23

Page 24 of 45
2020 La. LEXIS 228, *76
that black males have a unique experience of
discrimination in the criminal justice system, in
employment, and in housing. Defendant further asserts
that the distinctiveness of a group is determined by lived
experience, rather than fixed characteristics. He also
posits that the presence of black men on a jury has
been associated with lower likelihood of a death
sentence for black defendants, because jurors
empathize more readily with members of their own
demographic group.33
As an initial matter, it appears defendant raised this
issue untimely. Defendant first raised the issue in a
motion for new trial filed on June 30, 2010. However,
motions to quash a general or petit jury venire on the
basis that the venire was improperly drawn, selected, or
constituted must be filed within three days before trial
or, with the [*77] court's permission, before the
commencement of trial. See La. C.Cr.P. art. 532(9);
La. C.Cr.P. art. 535 cmt. c(2) ("This objection is waived
unless it is urged before trial by a motion to quash the
venire. . . ."). Nonetheless, the trial court heard the issue
at the Motion for New Trial hearing on July 7, 2010. The
State argued that defendant's fair-cross-section claim
did not constitute grounds for a Motion for New Trial per
La.C.Cr.P. art. 851. Specifically, the State asserted
there is no jurisprudence to support defendant's
contention that black males constitute a [Pg 51]
distinctive group for purposes of the fair-cross-section
claim, and further, both the venire and petit jury were a
fair balance of race and gender. After hearing
substantive argument from the defense and State
consistent with their written briefs, the trial court denied
that claim without elaboration.
To the merits of defendant's argument, the selection of a
petit jury from a representative cross-section of the
community is an essential component of the Sixth
Amendment right to a jury trial. Taylor v. Louisiana, 419
U.S. 522, 95 S.Ct. 692, 42 L.Ed.2d 690 (1975). Under
La.C.Cr.P. art. 419(A):
A general venire, grand jury venire, or petit jury
venire shall not be set aside for any reason unless

33 These

arguments relate to the ultimate petit jury
composition, which is not subject to the fair cross-section
requirement. See Lockhart v. McCree, 476 U.S. 162, 173, 106
S. Ct. 1758, 90 L. Ed. 2d 137 (1986) ("We have never invoked
the fair-cross-section principle to invalidate the use of either
for-cause or peremptory challenges to prospective jurors, or to
require petit juries, as opposed to jury panels or venires, to
reflect the composition of the community at large").

fraud has been practiced, some great wrong
committed that would work irreparable injury [*78]
to the defendant, or unless persons were
systematically excluded from the venires solely
upon the basis of race.
In this instance, there is no presumption that irreparable
injury occurred due to alleged under-representation of
black males on the venire. The burden of proof "rests on
defendant to establish purposeful discrimination in the
selection of grand and petit jury venires." State v. Lee,
559 So.2d 1310, 1313 (La. 1990); State v. Loyd, 489
So.2d 898, 903 (La. 1986); State v. Liner, 397 So.2d
506, 516 (La. 1981); State v. Manning, 380 So.2d 54, 57
(La. 1980); State v. Sheppard, 350 So.2d 615, 651 (La.
1977). Further, Duren v. Missouri, 439 U.S. 357, 364, 99
S.Ct. 664, 668, 58 L.Ed.2d 579 (1979), provides that:
[i]n order to establish a prima facie violation of the
fair-cross-section requirement, the defendant must
show: 1) that the group alleged to be excluded is a
'distinctive' group in the community; 2) that the
representation of this group in venires from which
juries are selected is not fair and reasonable in
relation to the number of such persons in the
community; and 3) that the under-representation is
due to systematic exclusion of the group in the jury
selection process.
Courts typically evaluate the degree of underrepresentation using the "absolute disparity" measure
(the difference in the percentage of the group in the jury
pool and the percentage of the group in the jury-eligible
population), the "comparative disparity" measure (the
ratio of the absolute disparity to [*79] the distinctive [Pg
52] group's representation in the jury-eligible
population), or a standard deviation analysis. However,
the jurisprudence has not established a specific
qualifying degree of under-representation. Berghuis v.
Smith, 559 U.S. 314, 329, 130 S.Ct. 1382, 1393, 176
L.Ed.2d 249 (2010). Additionally, defendants must
demonstrate the mechanism by which the jury selection
process works to systematically exclude the distinct
group; defendants cannot "make out a prima facie case
merely by pointing to a host of factors that, individually
or in combination, might contribute to a group's
underrepresentation." Berghuis, 559 U.S. at 332; 130
S.Ct. at 1395 (emphasis in original).
Here, defendant argues that black men constitute a
distinctive group for Duren purposes because they are
uniquely subjected to systematic racial discrimination
such as disproportionate police brutality, economic
hardship, and limited social mobility. However,

Erica Navalance

Pet. App. A 24

Page 25 of 45
2020 La. LEXIS 228, *79
defendant points to no jurisprudence to support his
argument that these characteristics support establishing
black males as a group "sufficiently numerous and
distinct" that would require separate parsing from the
larger demographic of African-Americans generally
under the Sixth Amendment's fair-cross-section
requirement. See Taylor v. Louisiana, 419 U.S. 522,
538, 95 S.Ct. 692, 702, 42 L.Ed.2d 690 (1975) (the
Court holding that although petit juries "must be drawn
from [*80] a source fairly representative of the
community, we impose no requirement that petit juries
actually chosen must mirror the community and reflect
the various distinctive groups in the population," and
although defendants are not entitled to a jury of any
particular composition, "the jury wheels, pools of names,
panels, or venires from which juries are drawn must not
systematically exclude distinctive groups in the
community and thereby fail to be reasonably
representative thereof.")34

34 The

Taylor court also held:

We accept the fair-cross-section requirement as
fundamental to the jury trial guaranteed by the Sixth
Amendment and are convinced that the requirement has
solid foundation. The purpose of a jury is to guard against
the exercise of arbitrary power—to make available the
commonsense judgment of the community as a hedge
against the overzealous or mistaken prosecutor and in
preference
to
the
professional
or
perhaps
overconditioned or biased response of a judge. Duncan
v. Louisiana, 391 U.S., at 155-156, 88 S.Ct., at 14501451. This prophylactic vehicle is not provided if the jury
pool is made up of only special segments of the populace
or if large, distinctive groups are excluded from the pool.
Community participation in the administration of the
criminal law, moreover, is not only [*81] consistent with
our democratic heritage but is also critical to public
confidence in the fairness of the criminal justice system.
Restricting jury service to only special groups or
excluding identifiable segments playing major roles in the
community cannot be squared with the constitutional
concept of jury trial. 'Trial by jury presupposes a jury
drawn from a pool broadly representative of the
community as well as impartial in a specific case. . . .
(T)he broad representative character of the jury should
be maintained, partly as assurance of a diffused
impartiality and partly because sharing in the
administration of justice is a phase of civic responsibility.'
Thiel v. Southern Pacific Co., 328 U.S. 217, 227, 66 S.Ct.
984, 90 L.Ed. 1181 (1946) (Frankfurter, J., dissenting).
Taylor v. Louisiana, 419 U.S. at 530-31, 95 S.Ct. at 697-98.

[Pg 53] Even accepting arguendo that black men
constitute a distinctive group for purposes of the faircross-section
requirement,
defendant's
disparity
argument does not appear to rest on correct or
applicable data. According to defendant, data from the
2008 American Community Survey census shows that
the jury-eligible population of East Baton Rouge Parish
is approximately 18% African-American men and that
the 2009 voter registration roll for East Baton Rouge
Parish maintained by the Secretary of [*82] State
indicates East Baton Rouge Parish's population is
16.6% African-American men.
In his brief, defendant posits that "[i]n the venire of 102
jurors actually subject to voir dire, there were only seven
African-American men, or 6.8%," and defendant thus
claims a 62% comparative disparity in the
representation of black men in his general venire.
However, the record in this case establishes that in fact
twelve (12) venire members were black males. As such,
it would appear that approximately 12% of defendant's
venire were black males, resulting in a comparative
disparity of approximately 33%.35 Regardless, as
defendant only provides data regarding his [Pg 54] own
venire, it is impossible to determine whether the
proportion of black males in defendant's venire is
representative of East Baton Rouge Parish venires
generally. Defendant asserts without explanation or
support that the disparity results "from the operation of
the jury summons and selection system," thereby
allegedly demonstrating that black males are
systematically excluded from East Baton Rouge Parish
jury pools for purposes of the aforementioned Duren
test. However, defendant acknowledges that East Baton
Rouge jury pools are [*83] selected randomly from a
combination of voter registration rolls and Department of
Motor Vehicles records. Defendant does not
demonstrate, or even speculate, about how this method
of venire selection would systematically exclude black
males. As such, we find the defendant fails to show
"systematic exclusion" of a distinct group, and
consequently, there is no reversible error in this regard.
State v. Turner, 16-1841 (La. 12/5/18), 263 So.3d 337,
394, reh'g denied (1/30/19); see, e.g., Moore v. Cain,
No. CV 14-0297-JJB-EWD, 2017 U.S. Dist. LEXIS

35 The

"absolute disparity" measure is the difference in the
percentage of the group in the jury pool and the percentage of
the group in the jury-eligible population, whereas the
"comparative disparity" measure is the ratio of the absolute
disparity to the distinctive group's representation in the juryeligible population. Berghuis, 559 U.S. at 323.

Erica Navalance

Pet. App. A 25

Page 26 of 45
2020 La. LEXIS 228, *83
158970, 2017 WL 4276934, at *8 (M.D. La. Sept. 7,
2017), report and recommendation adopted, No. CV 14297-JJB-EWD, 2017 U.S. Dist. LEXIS 158970, 2017 WL
4275903 (M.D. La. Sept. 26, 2017) (unpub'd) ("The
mere fact that one particular jury venire may exhibit
disproportionality does not in any sense amount to proof
that the State's system of constituting its central jury
pool is unconstitutional or leads to the systematic
exclusion of any particular group from the jury-selection
process.").36
Equal protection violation. Defendant makes the
related argument that "Louisiana's system for selecting
a petit jury venire violates the Equal Protection Clause
of the Fourteenth Amendment to the United States
Constitution, and this [Pg 55] Court must order a new
trial." Defendant supports this claim with a combination
of grand jury jurisprudence and statistics from 20122017 relating to the prosecution's use of challenges to
remove prospective jurors. Notably, [*84]
these
statistics do not encompass defendant's trial, which took
place in 2010. Moreover, defendant did not raise a
Batson37 challenge at trial, nor does he allege the
prosecution exercised its peremptory strikes in a
discriminatory manner in the instant case.
Regardless, the record shows that defendant's 12member jury consisted of five black females, two white
females, and five white males. The alternates were a
white female and a white male. Our review of the record
reveals no equal protection violation, and thus, this
assignment of error is without merit.

F. The trial court erred in denying defendant's
proposed questions on the jury questionnaire and
violated his right to a full voir dire examination

36 In

defendant's "Reply Brief" filed on October 1, 2019,
defendant argues for the first time that East Baton Rouge
Parish draws its jury pools from a flawed computer database,
citing State v. Cannon, 19-0590 (La. 4/18/19), 267 So.3d 585,
586. However, the computer error addressed in Cannon did
not occur until after 2011, after the conclusion of defendant's
trial. As such, the error had no impact on defendant's jury pool.
37 Batson

v. Kentucky, 476 U.S. 79, 106 S.Ct. 1712, 90
L.Ed.2d 69 (1986) (setting forth a three part process to
determine if there is racial discrimination in the voir dire
process, the Supreme Court held that it is an equal protection
violation for the State to exercise its peremptory strikes to
remove jurors from the venire panel solely on the basis of the
juror's race).

under Article I, § 17 of the Louisiana Constitution.
(Defendant's Assignment of Error 35)
In this assignment of error, defendant asserts he was
deprived of his right to a full voir dire examination under
Article I, § 17 of the Louisiana Constitution because the
trial court denied his request to include in the jury
questionnaire several specific questions regarding the
reasonable doubt standard, views on the death penalty,
and the question "[h]ave you or anyone close to you
ever undergone sudden or drastic change in behavior or
personality?" Defendant contends the questions
were [*85] necessary because many jurors do not
genuinely understand the concepts of reasonable doubt
and the burden of proof. Moreover, defendant argues,
the questions were pivotal to evaluating the jurors'
receptivity to mitigating evidence. In contrast, the State
argues that voir dire in this case was comprehensive,
and [Pg 56] defendant's arguments are unsupported by
any facts or jurisprudence.
Here, the trial court addressed the questions to be
included on the jury questionnaire at a motions hearing
and heard argument regarding the proposed questions
from the State and defense. The court ultimately
excluded the questions about reasonable doubt, finding
that the questions would require more background
information to obtain a valid answer, and those issues
would be covered at length during voir dire, as well as in
the court's instructions to the jurors. The court also
excluded several questions regarding views on the
death penalty, reasoning that the questions sought
answers regarding their views on what sentence was
appropriate for murder without providing relevant
information about the offense and the law. The court
further found that the questions required the venire
members "to commit to [*86] why they think a person
ought to be put to death. The code provides aggravating
circumstances, and that's what they have to go on." The
trial court also excluded the question "[h]ave you or
anyone close to you ever undergone sudden or drastic
change in behavior or personality?" after the State
objected on the grounds that it was an inappropriately
fact-based question that potentially implied an issue in
the case, and, thus, it was more properly suited to voir
dire than the court's questionnaire.
We do not find anything in these rulings indicating the
trial court abused its discretion or impinged upon
defendant's right to a full voir dire. Although defendant
may have preferred to include specific questions in the
written questionnaire, he does not show how the trial
court's ruling prejudiced him. In fact, we cannot detect

Erica Navalance

Pet. App. A 26

Page 27 of 45
2020 La. LEXIS 228, *86
any attempt by defense to include the questions
regarding sudden changes in personality during full voir
dire. As such, there is no reversible error in this regard
and this assignment of error is without merit.

Defendant does not explain why the reasoning in
Odenbaugh does not apply to [*88] his case nor why
this Court's jurisprudence should be disturbed.
Therefore, this assignment of error fails.

[Pg 57] G. Death qualification process leads to a jury
predisposed to impose the death penalty, and
disproportionately excludes black jurors
(Defendant's Assignments [*87] of Error 44-45)

In sum, a review of the voir dire in this record as a whole
reveals no error [Pg 58] whatsoever by the trial court. As
this Court has stated before, we defer to the trial judge's
great discretion in this area, which we have deemed
paramount. Specifically, we have found:
[t]he trial judge has the benefit of seeing the facial
expressions and hearing the vocal intonations of
the members of the jury venire as they respond to
questioning by the parties' attorneys. Such
expressions and intonations are not readily
apparent at the appellate level where review is
based on a cold record. Furthermore, to the extent
he or she believes it necessary or desirable to do
so, the trial judge has the benefit of the ability to
directly participate in the examination of the
members of the jury venire. As such, we are
reluctant to reverse a ruling of the trial judge on a
challenge for cause where it does not appear from
a review of the record as a whole that the trial judge
has somehow abused his discretion.

In these assignments of error, defendant contends that
the death qualification process has a racially
discriminatory impact. Specifically, defendant argues
that the disqualification process violates his Sixth
Amendment right to an impartial jury, unfairly leads to a
death-prone jury, and deprives him of a fair-crosssection of the community available to individuals
charged with non-capital offenses.
In State v. Odenbaugh, 10-0268 (La. 12/6/11), 82 So.3d
215, this Court addressed this same argument that
Louisiana's
death
qualification
process
is
unconstitutional. The Court explained:
[T]here should be no question of the constitutional
validity of LSA-C.Cr.P. art. 798 since it was drafted
to conform to the constitutional requirements set
forth in [Witherspoon]; see also, [Witt]. In Lockhart
v. McCree, 476 U.S. 162, 106 S.Ct. 1758, 90
L.Ed.2d 137 (1986), the Supreme Court held that
the Constitution does not prohibit excluding
potential jurors under Witherspoon or that "death
qualification" resulted in a more conviction-prone
jury. Likewise, this Court has repeatedly rejected
the claim that the Witherspoon qualification process
results in a death-prone jury. State v. Robertson,
97-0177, pp. 19-20 (La.3/4/98), 712 So.2d 8, 25-26;
State v. Sullivan, 596 So.2d 177, 186-87 (La.
1992); State v. Lindsey, 543 So.2d 886, 896 (La.
1989); State v. Brown, 514 So.2d 99, 103-04 (La.
1987); State v. Bates, 495 So.2d 1262, 1272 (La.
1986); State v. Ford, 489 So.2d 1250, 1259 (La.
1986); State v. Ward, 483 So.2d 578, 582-83 (La.
1986); State v. Jones, 474 So.2d 919, 927 (La.
1985); State v. James, 431 So.2d 399, 402 (La.
1983). This Court finds no need to revisit this
longstanding principle of law.
Odenbaugh, 10-0268, p. 48 (La. 12/6/11), 82 So.3d 215,
248-49.38

38 See

also State v. Turner, 16-1841, p. 88-9 (La. 12/5/18), 263
So.3d 337, 394-5.

State v. Lee, 93-2810 (La. 5/23/94), 637 So.2d 102,
108.39
Our review of this record as a whole reveals this trial
judge was actively engaged [*89] in the voir dire
process, and his rulings did not constitute an abuse of
discretion. See State v. Draughn, 05-1825, p. 28 (La.
1/17/7), 950 So.2d 583, 604 (concluding the trial judge
correctly ruled regarding a Batson challenge, the Court
noted that "in making our determination, we note the
prosecution's use of a peremptory challenge cannot be
separated from the context in which the challenge
arises, a context which the trial judge is in the best
position to evaluate. This record shows that the trial
judge, prosecutor and defense counsel were all actively
engaged in a full and complete voir dire.") Finding no
reversible error during the voir dire phase of trial, we
now turn defendant's assignments of error related to
trial.

IV. Trial (Assignments of Error 1-2, 6-14, 30-34, 36,
39)

39 See

also State v. Tart, 93-0772, p. 16 (La. 2/9/96), 672
So.2d 116, 124 (citing Lee, supra).

Erica Navalance

Pet. App. A 27

Page 28 of 45
2020 La. LEXIS 228, *89

A. The State's introduction of DNA evidence was
irrelevant, prejudicial, and misleading, and denied
defendant due process and a fair trial. (Defendant's
Assignments of Error 1-2)
Defendant argues the lower court erred by permitting
the State to introduce DNA [Pg 59] evidence because
the evidence was not relevant to proving any of the
elements of the charged offense. Specifically, defendant
submits he was prejudiced by DNA analyst Julia
Naylor's [*90] testimony that the swab from the victim's
penis did not yield a sufficient profile to include or
exclude defendant because DNA evidence carries a
disproportionate weight with juries. Thus, defendant
asserts, the mere introduction of DNA evidence carries
an association of sexual assault.40 Defendant also reurges the argument, previously raised in his first motion
for new trial, that Ms. Naylor's trial testimony
erroneously failed to exclude him as a contributor to the
swab taken from the victim's penis. He argues this
prejudicially misled the jury by insinuating that
defendant had sexually abused the victim.
Evidence is relevant if it has any tendency to make a
fact at issue more or less probable than it would be
without the evidence. La. C.E. art. 401. Article 402 of
the Louisiana Code of Evidence provides that "[a]ll
relevant evidence is admissible, except as otherwise
provided by the Constitution of the United States, the
Constitution of Louisiana, this Code of Evidence, or
other legislation." However, relevant evidence may be
excluded if its probative value is substantially
outweighed by the danger of unfair prejudice. La. C.E.
art. 403; State v. Brown, 395 So.2d 1301, 1314 (La.
1981). The erroneous introduction of irrelevant evidence
is subject to harmless-error review. State v. Small, 11-

40 Julia

Naylor testified at trial that she performed DNA
analysis on three swabs from the victim's body: an oral swab,
an anal swab, and a penis swab. She also tested samples
from defendant's penis, underwear, and cheek. The victim's
penis swab showed a mixture of two DNA contributors, one
major and one minor. The victim could not be excluded as the
major contributor, but because of "the limited amount of DNA
from the minor contributor" she could not determine whether
defendant could be included or excluded as the minor
contributor. For the victim's oral and anal swabs, the DNA was
all consistent with the victim, and no foreign DNA was
detected. Ms. Naylor testified that of the samples taken from
defendant, none included DNA from the victim.

2796, p. 26, (La. 10/16/12), 100 So.3d 797, 815. An
error is harmless if the [*91] verdict is "surely
unattributable" to the error. State v. Johnson, p. 14 (La.
11/27/95), 664 So.2d 94, 100, citing Sullivan v.
Louisiana, 508 U.S. 275, 113 S.Ct. 2078, 124 L.Ed.2d
182 (1993).
[Pg 60] Prior to trial in this case, defendant sought to
exclude the State's DNA evidence on relevance
grounds. On February 9, 2010, the defense filed a
motion to preclude admission of the DNA evidence as
irrelevant, which the trial court denied without
elaboration after a hearing on February 23, 2010.
Defendant re-urged the motion at a hearing on March
10, 2010, and the court again denied the motion. He
sought review at the court of appeal, followed by this
Court, arguing the DNA evidence should be excluded
because it was not relevant to any of the facts at issue.
Both courts denied his writ applications without
comment. State v. Holliday, 10-0401 (La. App. 1 Cir.
3/3/10) (unpub'd), writ denied, 10-0495 (La. 3/5/10), 28
So.3d 997.
After his conviction, defendant filed a Motion for New
Trial on June 30, 2010, arguing in part that the State
presented irrelevant, prejudicial, and misleading
information by suggesting defendant's DNA may have
been present on the victim's penis, while also re-urging
his pre-trial arguments for excluding the DNA evidence.
In support of his motion, defendant submitted a report
from biologist Dr. Norah Rudin, obtained after his
conviction, opining that defendant [*92] was excluded
as the contributor to the minor profile on the swab taken
from Darian's penis. The court held a hearing on July 7,
2010, and, after hearing argument from the defense and
the State, denied the Motion for New Trial without
elaboration.
According to her report, Dr. Rudin conducted a review of
the Louisiana State Crime Lab's DNA analysis and
concluded that based on the information provided to
her, defendant could be excluded as a contributor to the
DNA swab from the victim's penis. Notably, Dr. Rudin's
report was qualified with the statement that "[a]s I was
not provided with the transcript of the testimony of Julie
D. Naylor I am unable to comment on the accuracy of
the notes of her testimony as provided to me." Dr. Rudin
further stated:
[a]s I was not provided with full standard discovery,
including, but not limited to, electronic data, I have
not had an opportunity to perform an independent
analysis. Any opinions provided in this document
might or [Pg 61] might not change as a result of

Erica Navalance

Pet. App. A 28

Page 29 of 45
2020 La. LEXIS 228, *92
performing a complete independent review of the
DNA data and other supporting documents.
In light of Dr. Rudin's own testimony that she was not
provided
Ms.
Naylor's
transcript
or
related
evidence, [*93] it is impossible for this Court to afford
any weight to her opinion.
Regardless, even assuming the DNA results were not
relevant or were otherwise erroneously admitted, the
verdict is surely unattributable to the alleged error. Even
without the DNA evidence, as noted above, the
evidence that defendant beat the victim to death was
more than adequate to support defendant's conviction.
Consequently, we find that any error in admitting the
evidence in this instance is harmless. Johnson, 664
So.2d at 100, 102 (the court holding that introduction of
other crimes evidence is subject to a harmless error
analysis and the verdict rendered was not surely
attributable to the error). Thus, we find this assignment
of error to be without merit.

B. Improper admission of evidence and arguments
regarding sexual assault relieved the State of its
burden of proof and violated defendant's rights to a
fair trial and reliable sentencing. (Defendant's
Assignments of Error 9 and 36)
Relatedly, defendant contends that his right to due
process was violated by the State's insinuations that he
sexually abused the victim and the State's introduction
of evidence and testimony regarding injury to the
victim's anus and penis. He reasons that the
evidence [*94] constitutes inadmissible other crimes
evidence of sexual abuse in violation of La.C.E. 40341
and La.C.E. art. 404(B).42 Defendant further [Pg 62]

41 La.

C.E. art. 403 provides: "Although relevant, evidence may
be excluded if its probative value is substantially outweighed
by the danger of unfair prejudice, confusion of the issues, or
misleading the jury, or by considerations of undue delay, or
waste of time.
42 La.

C.E. art. 404(B) provides:

B. Other crimes, wrongs, or acts. (1) Except as provided
in Article 412, evidence of other crimes, wrongs, or acts
is not admissible to prove the character of a person in
order to show that he acted in conformity therewith. It
may, however, be admissible for other purposes, such as
proof of motive, opportunity, intent, preparation, plan,
knowledge, identity, absence of mistake or accident,

argues the evidence was introduced solely to prejudice
him and depict him as a man of bad character, as there
was no evidence to support sexual abuse in this case,
and the testimony was not relevant to the charged
offense. The State counters that it never asserted that
defendant committed sexual assault on the victim.
Notably, during opening statements and closing
arguments, the prosecutor reminded the jury that
defendant was not charged with sexual assault;
moreover, throughout trial the prosecutor repeatedly
asserted that she could not prove sexual assault.
As an initial matter, there is no [*96] indication
defendant objected to any of the complained-of
testimony on these grounds, and as such, this claim is
not preserved for review.
La.C.Cr.P. art. 841.43

provided that upon request by the accused, the
prosecution in a criminal case shall provide reasonable
notice in advance of trial, [*95] of the nature of any such
evidence it intends to introduce at trial for such purposes,
or when it relates to conduct that constitutes an integral
part of the act or transaction that is the subject of the
present proceeding.
(2) In the absence of evidence of a hostile demonstration
or an overt act on the part of the victim at the time of the
offense charged, evidence of the victim's prior threats
against the accused or the accused's state of mind as to
the victim's dangerous character is not admissible;
provided that when the accused pleads self-defense and
there is a history of assaultive behavior between the
victim and the accused and the accused lived in a familial
or intimate relationship such as, but not limited to, the
husband-wife, parent-child, or concubinage relationship,
it shall not be necessary to first show a hostile
demonstration or overt act on the part of the victim in
order to introduce evidence of the dangerous character of
the victim, including specific instances of conduct and
domestic violence; and further provided that an expert's
opinion as to the effects of the prior assaultive acts on the
accused's state of mind is admissible.
43 La.

C.Cr.P. art. 841 provides:

A. An irregularity or error cannot be availed of after
verdict unless it was objected to at the time of
occurrence. A bill of exceptions to rulings or orders is
unnecessary. It is sufficient that a party, at the time the
ruling or order of the court is made or sought, makes
known to the court the action [*97] which he desires the
court to take, or of his objections to the action of the
court, and the grounds therefor.
B. The requirement of an objection shall not apply to the
court's ruling on any written motion.

Erica Navalance

Pet. App. A 29

Page 30 of 45
2020 La. LEXIS 228, *97
Regardless, the complained-of testimony and evidence
here does not constitute "other crimes" evidence per
La.C.E. art. 404(B). The testimony in question relates to
the victim's injuries at the time of his death, and thus, is
directly relevant to the charged offense of first-degree
murder. Any and all [Pg 63] injury inflicted on the victim
in conjunction with his death is probative of whether
defendant had the specific intent to kill or inflict great
bodily harm on the victim pursuant to La. R.S. 14:30,
and probative of the aggravating factor of seconddegree cruelty to a juvenile pursuant to La. R.S.
14:93.2.3. Importantly, defendant cites no authority for
the proposition that otherwise relevant evidence of a
victim's injuries is inadmissible if the injuries could
indicate an uncharged offense.
Even assuming the evidence constitutes other crimes
evidence under La. C.E. art. 404(B), evidence of the
victim's injuries would certainly be admissible as "an
integral part of the act or transaction that is the subject
of the present proceeding." See also State v. Taylor, 011638 (La. 1/14/03), 838 So.2d 729, 741 (Other crimes
are admissible as integral acts when they are related
and intertwined with the charged offense to such an
extent that the state cannot accurately present its case
without reference to the other crimes.).
Defendant also repeatedly argues there is no evidence
indicating the victim was subjected to sexual abuse.
Defendant reasons that Dr. Corrigan testified that
although the victim's anus was "distended and dilated"
the tissues were not perforated. Moreover, Dr. Stephen
Guertin, a pediatrician defendant consulted after the
conclusion of trial, endorsed Dr. Corrigan's testimony
over that of Dr. Murrill and Nurse Williams, both of [*98]
whom had testified at trial that the victim's anus showed
indications of injury and/or sexual abuse. Dr. Guertin
based his opinion on a review of the medical testimony
and autopsy photographs, and concluded that the victim
did not suffer "anal sexual injury." Defendant contends
that neither Dr. Murrill nor Nurse Williams were qualified
as experts in sexual assault, so their opinions on the
victim's injuries were inadmissible.
Notably, like Dr. Murrill and Nurse Williams, Dr. Guertin
had not been qualified as an expert in sexual assault.
Regardless, the absence of anal sexual injury is not
proof that defendant never abused the victim. Even
assuming arguendo that the [Pg 64] State's witnesses

C. The necessity for and specificity of evidentiary
objections are governed by the Louisiana Code of
Evidence.

Dr. Murrill and Nurse Williams were incorrect in
concluding the victim had anal tearing or other injury,
defendant acknowledged in his second statement to
police that he inserted his finger in the victim's anus,
and the victim's penis had an injury of unknown cause
visible in the autopsy photographs. For these reasons,
we do not find any due process violation in this regard,
and therefore, this assignment of error is without merit.

C. Defendant's rights under the Fifth, Sixth, and
Fourteenth Amendments were violated by the
introduction [*99] of his custodial statements at
trial. (Defendant's Assignments of Error 10-11)
Defendant states the trial court erred by denying his
motions to suppress his waiver of rights forms and the
two statements he made to police, arguing that the
police continued to interrogate defendant after he
repeatedly requested a lawyer in violation of Edwards v.
Arizona, 451 U.S. 477, 101 S.Ct. 1880, 68 L.Ed.2d 378
(1981). He further contends the police failed to honor his
limited request for counsel, in accordance with
Connecticut v. Barrett, 479 U.S. 523, 527-30, 107 S. Ct.
828, 93 L. Ed. 2d 920 (1987) (a defendant's request for
counsel in the event that he had to give a written
statement was limited to that situation and did not serve
as a general invocation of the right to counsel
prohibiting subsequent police-initiated questioning).
Specifically, in his first motion to suppress, defendant
argued that his statements were involuntary because
police did not honor his requests for an attorney, and in
his second motion to suppress, defendant asserted that
he did not knowingly waive his rights before giving his
statement.
When an accused has "expressed his desire to deal
with the police only through counsel, [he] is not subject
to further interrogation by the authorities until counsel
has been made available to him unless the accused
himself
initiates
further [*100]
communication,
exchanges, or conversations with the police." Edwards
v. Arizona, 451 U.S. 477, 484-485, 101 S.Ct. 1880,
1885, 68 L.Ed.2d 378 (1981). A defendant [Pg 65] may
invoke his right to counsel for limited purposes,
however, without triggering the rule of Edwards. See
also, Barrett, supra.
As a general matter, before inculpatory statements may
be admitted into evidence, the State has the burden of
affirmatively showing that they were made freely and
voluntarily and not under the influence of fear, duress,
intimidation, menace, threats, inducements, or

Erica Navalance

Pet. App. A 30

Page 31 of 45
2020 La. LEXIS 228, *100
promises. See La. R.S. 15:451; State v. West, 408
So.2d 1302, 1307 (La. 1982); State v. Dewey, 408
So.2d 1255, 1258 (La. 1982). If the statement was
made during custodial interrogation, the State must
show that the defendant was advised of his
constitutional rights. Miranda v. Arizona, 384 U.S. 436,
86 S.Ct. 1602, 16 L.Ed.2d 694 (1966); State v.
Petterway, 403 So.2d 1157, 1159 (La. 1981); State v.
Sonnier, 379 So.2d 1336, 1355 (La. 1979). The
admissibility of such statements is a question for the trial
judge, whose conclusions on the credibility and weight
of testimony relating to the voluntariness of a confession
for the purpose of admissibility should not be overturned
on appeal unless they are not supported by the
evidence. State v. Jackson, 381 So.2d 485, 487 (La.
1980). Improper admission of a coerced statement is
subject to harmless-error analysis. Arizona v.
Fulminante, 499 U.S. 279, 310, 111 S.Ct. 1246, 1265,
113 L.Ed.2d 302 (1991).
At the motions hearing, Detective Ross Williams
testified that on May 14, 2007, the night the victim died,
he and Detective Brian Watson transported defendant to
the police station from the scene. [*101] Before
questioning defendant, they informed him of his Miranda
rights, defendant acknowledged and appeared to
understand them and thereafter signed a waiver of
rights form. Det. Williams further testified that
defendant's entire statement was video recorded,
defendant did not appear to be under the influence of
alcohol or drugs, and the detectives did not threaten him
or promise him anything in return for the statement. Det.
Williams indicated that defendant was generally
"forthcoming," but during the interview when the police
[Pg 66] requested a DNA sample, defendant requested
an attorney to advise him regarding his consent to
providing the DNA. Because defendant was vacillating
on whether to consent to providing a DNA sample, later
that evening police obtained a warrant authorizing them
to obtain the DNA sample and then retrieved the sample
by swabbing defendant's cheek with the help of Crime
Scene Investigator Mindy Stewart. After defendant gave
his statement and police obtained the DNA sample, the
police brought him home.
Det. Williams testified that the next morning, defendant
spontaneously called him and asked to attend the
autopsy to discuss his theories about the victim's
cause [*102] of death. Det. Williams told defendant that
he could not attend the autopsy but agreed to send an
officer to give defendant a ride to the police station so
he could offer his theories. When defendant arrived,
Det. Williams again advised him of his rights, and

defendant signed another waiver of rights form, prior to
giving a second video-recorded statement. At the
conclusion of his second statement, defendant was
placed under arrest.
After Det. Williams testified at the hearing, the defense
objected to the admission of defendant's statements and
waiver forms, arguing the State failed to prove
defendant had knowingly and voluntarily waived his
rights before giving his statements. Specifically,
defendant argued that the State failed to clearly
establish which officer had signed defendant's waiver of
rights forms. The State countered that Det. Williams
testified at both hearings that he was present when
defendant was advised of his rights, that he saw
defendant sign the form, and that Det. Williams, Det.
Watson, and defendant all signed each waiver of rights
form before defendant began his statements. The trial
court ultimately concluded that defendant's signed
waiver-of-rights forms were [*103] admissible based
upon Det. Williams' testimony.
Similarly, the defense argued that defendant's recorded
statements were inadmissible because he requested an
attorney multiple times, that the beginning of [Pg 67] the
interviews are not shown in the video, and that "it is
clear from the tapes that he didn't understand what his
rights were," such that defendant did not knowingly,
intelligently, or voluntarily waive his rights. In contrast,
the State argued that the videos showed defendant's
statements were entirely voluntary, emphasizing that
defendant himself had requested the second interview.
The video showed the detectives did not use any
coercive tactics, defendant called the detectives back
multiple times when they tried to leave the room, and
each time defendant mentioned an attorney, the
detectives paused the interview to clarify his request.
When it was not entirely clear whether defendant was
requesting an attorney, the detectives stopped the
interview and stepped out of the room until defendant
called them back in to resume the interview. Importantly,
because it was not clear whether defendant was
consenting to providing a DNA sample, the detectives
obtained a warrant before [*104] collecting defendant's
DNA.
After reviewing Det. Williams' testimony and watching
the recordings of defendant's statements, which the
court found clearly showed that defendant freely and
voluntarily spoke with the detectives, the court ruled that
both of defendant's statements were admissible. As to
the first statement, the court also noted that, while
defendant did request counsel several times, he was

Erica Navalance

Pet. App. A 31

Page 32 of 45
2020 La. LEXIS 228, *104
clear that the request only related to his consent to
providing a DNA sample. The trial court found that
defendant otherwise wanted to continue speaking with
the detectives. Moreover, each time defendant
requested an attorney the detectives stopped the
interview until defendant actively re-engaged them.
We find defendant's second recorded interview reveals
no violation of defendant's rights, during which, notably,
defendant never requested an attorney. Moreover, he
initiated this second interview by calling the detectives in
an effort to advance his own theories regarding the
victim's death. Based upon our review of the record, we
specifically find the defendant's second interview is
clearly voluntary, [Pg 68] free of coercion, and
admissible per Edwards.
Regarding defendant's first statement, [*105] a review
of the video shows that statement was also voluntary
and free of coercion. Although defendant requested an
attorney initially for the limited purposes of his consent
to providing a DNA sample, we find the detectives
properly stopped the interview to clarify defendant's
request, before resuming non-DNA questioning after he
clearly stated his intent. Defendant's first mention of an
attorney occurs at approximately 0:06:07 in the first
recorded interview, after the detectives first requested
that defendant voluntarily provide a DNA sample.
Defendant responded:
Defendant: I'll do it, man, but my—I need a lawyer
though, cause I don't, I don't, y'all got me
somewhere I don't want to be at.
Officer: So you want a lawyer now?
Defendant: I—for the DNA part, everything else, I
don't need a lawyer for, cause I don't know nothing
about that, I don't know nothing about no DNA.
Officer: Ok, I'm just asking you, do you want an
attorney here? Defendant: Just for the DNA.
Everything else—
Officer: So when we swab you for DNA?
Defendant: So I could ask him, so he could know,
don't y'all gotta tell him? What y'all swabbing for? I
mean, I know y'all telling—
Officer: I tell him the same thing I told [*106] you.
Defendant: But, I mean, if he was my lawyer don't
y'all gotta tell him like, well, "Look, we found
something, the babysitter penetrated, so we want to
check DNA on him for that."
Officer: No. Not necessarily.
Officer 2: We never said we found anybody
penetrated or nothing, nobody said that.
Defendant: Well that's good.

Officer: There's some fluids on the outside of the
boy's body that we need to find out where they
came from. That's all we [Pg 69] got, and that's all
we wanna know right now. But if you want an
attorney here, I'll—
Defendant: I don't want no attorney, man, 'cause I
ain't did nothing.
Officer 2: Ok, there you go. So we do your DNA
and we finish all that we're doing, and we do
whatever that, we move on, and we get this finished
with.
Defendant: I don't trust that. I swear man.
Officer: Ok, well that's cool, that's totally up to you. I
can't make you do anything you don't want to do.
In this instance, defendant's request for counsel was
clearly a limited invocation per Barrett and not a general
invocation of his right to counsel that would require
termination of the interview. Importantly, after defendant
asked more questions of the detectives, he distinctly
stated that, "I [*107] don't want no attorney man, cause
I ain't did nothing." He then voluntarily continued the
interview by inviting the detectives to ask him more
questions.
Defendant's voluntary statement continued until roughly
00:36:00, when the detectives walked out into the
hallway for roughly five minutes, and returned with
Crime Scene Investigator Mindy Stewart. As Ms.
Stewart prepared to take defendant's DNA sample,
defendant told them, "I don't care about no DNA, man,
but y'all got ta, I need a lawyer so if you say you've got
something you gotta tell that lawyer what is y'all
checking on me for, I mean you checking my clothes."
From that point forward, the remainder of this first
interview primarily consisted of discussion between
defendant and the detectives as they attempted to
clarify defendant's request for counsel, interspersed with
defendant's questions to detectives about the victim's
injuries, the evidence they were seeking to test, and the
ramifications of the DNA testing. Defendant made no
further substantive statements. Despite defendant's
claims that he issued numerous individual requests for
counsel that the detectives ignored, we find the
exchange between the detectives and defendant [*108]
dictates otherwise. Specifically, the video shows that
defendant's [Pg 70] requests for counsel were all part of
a continuous exchange in which defendant alternated
between making repetitive and ambiguous statements
regarding his limited request for counsel, asking the
detectives about the DNA testing and evidence, and
asking detectives about the victim's injuries. It is clear

Erica Navalance

Pet. App. A 32

Page 33 of 45
2020 La. LEXIS 228, *108
from the recording that detectives asked defendant no
further questions beyond what was necessary to clarify
defendant's request for counsel and whether defendant
would consent to providing a DNA sample. The
detectives never coerced or pressured him to speak and
rigorously respected his invocation of his right to
counsel,44 as demonstrated by the following excerpt:
Defendant: I will take [the DNA test], but I need a
lawyer to be present for that. I don't want a lawyer
because I have nothing to defend, but if you're
coming with this whole DNA, I just want a lawyer
because I don't understand this.
Detective: He says he wants a lawyer, let's stop.
Defendant: Don't stop!
Detectives: If you say you want a lawyer, I have to
stop until the lawyer gets down here.45
We find the video shows that defendant's first statement
was [*109] also entirely knowing and voluntary.
Detectives immediately ceased questioning when
defendant asked for counsel, and further, neither
defendant's statement nor his DNA were obtained via
coercive interview techniques. In sum, defendant's
statements here [Pg 71] were not under the influence of
fear, duress, or intimidation, and we find no reversible
error in their admission. As a result, we find these
assignments of error to be without merit.

44 The

Innocence Network also asserts that defendant's DNA
was obtained via improper interrogation techniques. However,
as explained herein, we do not find detectives engaged in any
coercive
tactics
whatsoever.
Furthermore,
because
defendant's DNA samples were obtained via a warrant and not
his consent, any alleged coercion regarding his providing a
DNA sample is moot.
45 Although

defendant and the Innocence Network also
contend the detectives coerced defendant by withholding his
ability to use the bathroom, the video shows otherwise. After
detectives had left defendant alone in the interview room,
defendant stood up and walked out of the room. He can be
heard off-camera asking whether he could use the bathroom
in exchange for consenting to provide a DNA sample without
an attorney. The detectives replied that the warrant process
was already underway and returned defendant to the interview
room. Minutes later, detectives came back into the interview
room and brought defendant to use the bathroom. When they
returned, defendant again attempted to engage the detective
with questions about the victim's death, but the detective told
him to "hang tight" because they were "waiting on the judge"
and left the room. The remainder of the video shows
defendant sitting alone in the interview room.

D. Erroneous admission of gruesome autopsy
photographs (Defendant's Assignments of Error 3031)
Defendant argues that he was unduly prejudiced by the
admission of duplicative and gruesome autopsy
photographs of the victim. He further argues the court of
appeal erred by granting the State's pre-trial writ
application and reversing the trial court's ruling
excluding some of the photographs.
Before trial, the State initially sought to introduce
approximately 114 photographs. After negotiating with
the defense, the State agreed to reduce that number to
29. Nonetheless, the defense objected, and on April 30,
2009, filed a motion to preclude admission of the
photographs on the grounds that their probative value
was
outweighed
by
the
danger
of
unfair
prejudice [*110] and that the photographs were
duplicative, gruesome, and upsetting. The trial court
addressed the motion at a hearing on July 15, 2009,
and again on August 12, 2009. After hearing argument
and reviewing each contested photograph, the trial court
ruled that 15 of the photographs were inadmissible.
The State sought review of this ruling, which the court of
appeal granted, reversing the district court's rulings and
remanding for further proceedings. State v. Holliday,
09-1553 (La. App. 1 Cir. 9/28/09) (unpub'd). The court of
appeal reasoned that the excluded photographs were
not, categorically, unduly prejudicial, and could be
necessary to counter a forthcoming defense since it was
not yet apparent what defenses would be presented.
Ultimately, the State introduced 20 autopsy photographs
into evidence in its case-in-chief.
Defendant contends the photographs were not
necessary to prove any fact at issue [Pg 72] in the case
and that the defense was willing to stipulate to the
autopsy results.46 However, even when the cause of
death is not at issue, the State is entitled to the moral
force of its evidence, and postmortem photographs of
murder victims are generally admissible to prove corpus
delicti
and
to
corroborate
other
evidence
establishing [*111] cause of death, location, placement
of wounds, or positive identification of the victim. State
v. Letulier, 97-1360, pp. 17-19 (La. 7/8/98), 750 So.2d
784, 794-95; State v. Robertson, 97-0177, p. 29 (La.
3/4/98), 712 So.2d 8, 32; State v. Koon, 96-1208, p. 34
(La. 5/20/97), 704 So.2d 756, 776; State v. Maxie, 93-

46 Notably,

however, defendant now challenges the victim's
cause of death on appeal.

Erica Navalance

Pet. App. A 33

Page 34 of 45
2020 La. LEXIS 228, *111
2158, p. 11, n.8 (La. 4/10/95), 653 So.2d 526, 532.
Photographic evidence will be admitted unless it is so
gruesome as to overwhelm the jurors' reason and lead
them to convict the defendant without sufficient
evidence, i.e., when their probative value is substantially
outweighed by the unfairly prejudicial effect. State v.
Broaden, 99-2124, p. 23 (La. 2/21/01), 780 So.2d 349,
364 (citing State v. Martin, 93-0285, pp. 14-15 (La.
10/17/94), 645 So.2d 190, 198); State v. Perry, 502
So.2d 543, 558-59 (La. 1986)).
Here, given the strength of the evidence against
defendant, it seems unlikely that jurors found him guilty
based on the alleged inflammatory nature of the 20
photographs. We find defendant fails to show any error
in admitting the photographs, and therefore, this
assignment of error is without merit.

E. 911 recording erroneously admitted (Defendant's
Assignments of Error 32-34)
Defendant argues that the courts below erred by
admitting the recorded 911 call because it was not
relevant to any element of the charged offense, the
recording was largely unintelligible, and the hysterical
screaming of the victim's mother was deeply upsetting.
Because his defense was that the victim's death was an
[Pg 73] unintentional negligent homicide, defendant
contends the unfairly prejudicial effect of the recording
outweighed any evidentiary [*112] value to counter that
defense.
Generally, evidence is relevant and admissible if it has
any tendency to make the existence of a fact of
consequence more or less probable, but relevant
evidence may be excluded if its probative value is
substantially outweighed by its unfairly prejudicial effect.
See La.C.E. arts. 401-403.
Beginning on July 15, 2009, the court held a pre-trial
hearing at which it addressed the admissibility of the
recording. On August 12, 2009, the court granted
defendant's motion to exclude the recording, finding it
inadmissible because several unidentified voices were
audible, and the unfairly prejudicial effect outweighed
the evidentiary value.

relevant to show Ms. Coon's reaction to her child's
condition in order to counter the possible defense that
Ms. Coon was responsible for the victim's death. The
State asserted that each voice in the recording
belonged [*113] to a known individual who would be
called as a witness at trial to identify their own voice.
The court of appeal reversed the trial court's ruling and
remanded for further proceedings in the trial court,
finding no confrontation or foundation issues because
the recording was non-testimonial and the State
intended to call all of the parties heard in the recording
as trial witnesses. State v. Holliday, 09-1553 (La. App.
1 Cir. 9/28/09) (unpub'd). The court of appeal also found
that the recording fell under the excited utterance
exception to hearsay under La.C.E. 803(2),47 and
further, that the [Pg 74] recording was relevant to
counter any claims by the defense that the victim's
mother was involved in the victim's abuse. Defendant
sought review of this ruling, which this Court
denied.48State v. Holliday, 09-2355 (La. 1/8/10), 24
So.3d 863.
Here, we find no error in the court of appeal's
determination that the recorded 911 call should be
admitted. The recording shows that defendant never
sought medical attention although the victim was
unresponsive and not breathing. As such, it is probative
of whether defendant committed second-degree cruelty
to juveniles, showing that he intentionally or negligently
mistreated or neglected the victim, thereby placing the
victim at substantial risk of death. See La. R.S.
14:93.2.3. Further, [*114] the recording demonstrates
that the victim was unresponsive and not breathing at
5:57 p.m. when Ms. Coon made the 911 call. As such, it
is also probative to establish causation and a timeline
for the victim's death. We also find the call is relevant to
counter defendant's argument, raised on appeal, that
the State failed to eliminate the reasonable hypothesis
of innocence that the victim's injuries were caused by
the resuscitation efforts. Consequently, we find this
assignment of error without merit.

47 La.

The State sought review of this ruling, arguing that the
recording is relevant to establish that the victim was not
breathing when Ms. Coon arrived at home, that she was
the first person to seek medical attention for the victim,
and that she, not defendant, made efforts to revive the
victim. Additionally, the State argued the recording was

C.E. art. 803(2) provides that "[a] statement relating to a
startling event or condition made while the declarant was
under the stress of excitement caused by the event or
condition" is not excluded by the hearsay rule.
48 Although

the court of appeal's ruling also reversed the trial
court's ruling regarding autopsy photographs, defendant
expressly omitted that claim from his application to this Court.

Erica Navalance

Pet. App. A 34

Page 35 of 45
2020 La. LEXIS 228, *114
F. The trial court erred in denying the jury the
opportunity to meaningfully consider negligent
homicide. (Defendant's Assignment of Error 39)
Defendant argues the trial court denied him due process
by denying his request to include negligent homicide as
an option on the verdict form. According to defendant,
because his defense at trial was that the victim's death
constituted negligent homicide, the court's refusal to
include that option on the verdict form deprived
defendant of a means by which to "provide the jury with
a way to find Mr. [Pg 75] Holliday guilty of a crime and
hold him responsible for the child's death, without
'exonerat[ing]' him."
The record shows that defendant requested [*115] the
definition of negligent homicide be included in the jury
charges, and that the verdict form include the option of
negligent homicide. The State objected on the grounds
that negligent homicide is not a responsive verdict to
first degree murder. The court agreed to instruct the jury
regarding the definition of negligent homicide but did not
agree to including negligent homicide on the verdict
form because negligent homicide is not a responsive
verdict to the charged offense.
As the State notes in its brief, La.C.Cr.P. Art. 814(A)(1)
provides that the only responsive verdicts to first degree
murder are guilty, guilty of second-degree murder, guilty
of manslaughter, or not guilty. The verdict form properly
included these responsive verdicts, and thereby
provided the jury an alternative means of finding
defendant guilty of a crime and holding him responsible
for the victim's death. Defendant fails to show that the
trial court erred by omitting his desired verdict, which
was not authorized under the Louisiana Code of
Criminal Procedure. Likewise, failure to include a
prohibited verdict on the verdict form does not deny
defendant due process. We find this assignment of error
to be without merit.

G. Prosecutor [*116] improperly shifted the burden
of proof to the defense during closing argument.
(Defendant's Assignment of Error 8)
Defendant contends that the prosecution improperly
shifted the burden of proof to the defense during closing
argument. Specifically, during closing argument,
defense counsel suggested that the State had not met
its burden of proof because some of the evidence
collected from the scene, such as a comforter, a towel,
and the victim's red shirt and gray pants, had not been

tested for DNA. Defense counsel stated:
[Pg 76] Around five o'clock we were on DNA
evidence. Do you believe it? What was the purpose
of it? Do you know? I went through piece by piece.
The detective seized the evidence. Garments,
towel, comforter. Got it right that time. And other
articles of clothing. What was tested? Red shirt, the
gray pants, towel, a comforter. And the reason they
were not, do I have to say it? You heard it. Ms.
Naylor. She testified it was not. The integrity of an
investigation when a man's life is on the line
suggests to us that all evidence seized at a scene
that results in usage that was submitted to the
crime lab to be tested. It was not tested.
In her rebuttal argument, the prosecutor [*117]
responded:
Oh, the comforter. What would the comforter have
proven to you had we tested it? We know who did
it. He put himself alone there. All the witnesses put
him alone there. We have all the damage to this
young man's body. What would the comforter have
proven to you? If it had his DNA on it, it had
Darian's DNA on it. We would have expected that. It
would have been of no probative value. But more
importantly, this evidence, it doesn't belong to me. It
belongs to the case. If they wanted to test it, they
could have had it tested. They could have done
that. If they thought it was going to exonerate him,
and I don't imagine how, they could have tested it.
The same thing with the towel, which was found in
a room. It was a nasty towel.
The defense objected and moved for a mistrial, arguing
that:
The defense has no burden. And for her to
comment on what we did not test suggests to this
jury that we had a burden of proof. That is an
inappropriate comment on the right to remain silent
and the right not to put on a defense. And so I'm
asking that this-This is almost grounds for a
mistrial. And I would ask for a mistrial to be
declared at this time.
The prosecutor responded that the defendant [*118]
first raised this defense, and the State was therefore
permitted to respond to defendant's argument that the
evidence should have been tested. The trial court
overruled the objection and the request for a mistrial
without elaboration.
The general rule concerning the scope of closing
arguments is that they are confined to "evidence
admitted, to the lack of evidence, to conclusions of fact

Erica Navalance

Pet. App. A 35

Page 36 of 45
2020 La. LEXIS 228, *118
that the state or defendant may draw therefrom, and to
the law applicable to the case." La.C.Cr.P. art. 774.
Rebuttal closing arguments are restricted to answering
defendant's argument. Id. Generally, Louisiana
jurisprudence on prosecutorial misconduct allows
prosecutors wide latitude in choosing closing argument
tactics. Even if the prosecutor exceeds these bounds,
the Court will not reverse a conviction [Pg 77] if not
"thoroughly convinced" that the argument influenced the
jury and contributed to the verdict. State v. Martin, 930285, p. 18 (La. 10/17/95), 645 So.2d 190, 200; State v.
Jarman, 445 So.2d 1184, 1188 (La. 1984); State v.
Dupre, 408 So.2d 1229, 1234 (La. 1982).
Louisiana Code of Criminal Procedure art. 770(3)
prohibits a prosecutor from referring to the defendant's
failure to testify and violations thereof constitute grounds
for a mistrial.49 When a prosecutor makes an indirect
reference to the defendant's failure to take the stand,
however, this Court will inquire into the remark's
"intended effect on the jury" [*119] to distinguish
indirect references to the defendant's failure to testify
(which are impermissible) from general statements that
the prosecution's case is unrebutted (which are
permissible). State v. Johnson, 541 So.2d 818, 822 (La.
1989); see also State v. Jackson, 454 So.2d 116, 118
(La. 1984); State v. Fullilove, 389 So.2d 1282, 1284 (La.
1980).
Here, the prosecutor was clearly not referring to

49 La.

C.Cr.P. art. 770 provides:

Upon motion of a defendant, a mistrial shall be ordered
when a remark or comment, made within the hearing of
the jury by the judge, district attorney, or a court official,
during the trial or in argument, refers directly or indirectly
to:
(1) Race, religion, color or national origin, if the remark or
comment is not material and relevant and might create
prejudice against the defendant in the mind of the jury;
(2) Another crime committed or alleged to have been
committed by the defendant as to which evidence is not
admissible;
(3) The failure of the defendant to testify in his own
defense; or
(4) The refusal of the judge to direct a verdict.
An admonition to the jury to disregard the remark or
comment shall not be sufficient to prevent a mistrial. If the
defendant, however, requests that only an admonition be
given, the court shall admonish the jury to disregard the
remark or comment but shall not declare a mistrial.

defendant's failure to [*120] testify but rather making a
direct response to defendant's closing argument. As the
court found in State v. Jones, 15-0123 p. 46, (La. App. 4
Cir. 12/2/15), 182 So.3d 251, 281, writ denied, 16-0027
(La. 12/5/16), 210 So.3d 810:
[the prosecutor's argument] was not directed to
what the defense did or did not do during the trial.
Rather, it was directed to the content or lack thereof
of the defense's closing argument. Therefore, we
find this was not a reference by the State to any
burden on the defense to come [Pg 78] forward with
evidence. It was an answer to [defendant's] closing
argument, proper rebuttal under La.C.Cr.P. art.
774."
Based upon this reasoning, we thus find defendant has
not presented any reversible error in this regard.

H. The trial court erred in denying a new trial in light
of newly discovered evidence fit for the jury's
consideration that Darian was not sexually abused.
(Defendant's Assignments of Error 6-7)
Defendant contends the trial court erred by denying his
motion for new trial pursuant to La. C.Cr.P. art.
851(B)(3), in which he asserted newly discovered
evidence, in the form of a letter from pediatrician Dr.
Stephen Guertin, established the victim was not
sexually abused.
In order to obtain a new trial based on newly discovered
evidence, the defendant has the burden of showing that:
1) the new evidence was discovered [*121] after trial,
2) the failure to discover the evidence at the time of the
trial was not caused by lack of diligence, 3) the evidence
is material to the issues at trial, and (4) the evidence is
of such a nature that it would probably have produced a
different verdict. La.C.Cr.P. art. 851(B)(3); State v. Bell,
09-0199 (La. 11/30/10), 53 So.3d 437; State v.
Matthews, 50,838 (La. App. 2 Cir. 8/10/16), 200 So.3d
895, writ denied, 16-1678 (La. 6/5/17), 220 So.3d 752.
Under La.C.Cr.P. 851, newly discovered evidence must
first be determined to be "material." Evidence is material
only if it is reasonably probable that the result of the
proceeding would have been different had the evidence
been disclosed. State v. Marshall, 94-0461, p. 16 (La.
9/5/95), 660 So. 2d 819, 826 (citing United States v.
Bagley, 473 U.S. 667, 682, 105 S.Ct. 3375, 3383, 87
L.Ed.2d 481 (1985)). "A reasonable probability is one
that is sufficient to undermine confidence in the
outcome" of the trial. Marshall, 94-0461, p. 16, 660

Erica Navalance

Pet. App. A 36

Page 37 of 45
2020 La. LEXIS 228, *121
So.2d at 826. A district court should ascertain on a
motion for new trial "whether there is new material fit for
a [Pg 79] new jury's judgment. The only issue is whether
the result will probably be different." State v. Watts, 000602, p. 9 (La. 1/14/03), 835 So.2d 441, 449. The
decision of whether to grant or deny a motion for new
trial is within the trial judge's sound discretion. State v.
Brisban, 00-3437 (La. 2/26/02), 809 So.2d 923.
We find defendant's claim fails to satisfy the
prerequisites for granting a new trial under La.C.Cr.P.
art. 851B(3). Specifically, defendant's motion posits that
the letters from Dr. Stephen Guertin, dated March 23,
2011, and April 18, 2011, constitute newly [*122]
discovered evidence. Dr. Guertin's letters are neither
newly discovered evidence, nor do they prove the victim
was never sexually abused. Instead, Dr. Guertin's first
letter merely voices his assessment of the evidence
adduced at trial. Specifically, Dr. Guertin disputes Dr.
Murrill's testimony that the autopsy photographs show
"unquestionable sexual abuse to the perianal region"
and opines that Dr. Corrigan correctly testified at trial
that the victim's autopsy photographs do not depict anal
sexual injury. In his second letter, Dr. Guertin provides a
specific list of the evidence he reviewed in formulating
his opinion, including portions of the trial testimony, the
coroner's report and autopsy photographs, a crime
scene and investigation report, and some of the victim's
medical records.
Moreover, this evidence is not material, in that there is
no likelihood the result of trial would be different with the
addition of Dr. Guertin's opinion. As Dr. Guertin notes in
his letter, Dr. Corrigan testified at trial that the victim's
anus was not perforated, so Dr. Guertin's assessment of
the evidence is merely cumulative. Evidence cumulative
of issues addressed at the trial is ordinarily not [*123]
sufficient to support the grant of a new trial. See State v.
Lavene, 343 So.2d 185, 188 (La. 1977).
Importantly, defendant was ultimately not charged with
any form of sexual abuse; the evidence in question was
introduced in relation to the aggravating factor of
second-degree cruelty to juveniles. Even absent the
evidence regarding the victim's [Pg 80] anus, the charge
of second-degree cruelty to juveniles was readily
established by the bite mark on the victim's foot and
defendant's failure to seek medical attention after he
realized the victim was unresponsive and not breathing.
The remaining elements of the charged offense were
established by the victim's injuries and defendant's
statement.

Finally, as noted above, regardless of injury to the
victim's anus, defendant told detectives during his
second statement that "if y'all did the autopsy, you
probably know, I checked for a bowel movement,
sticking my finger in his ass trying to check his body
temperature." In light of this admission, defendant
cannot show that the absence of anal tearing proves he
never inserted his finger into the victim's rectum. Thus,
we find this assignment of error to be without merit.

V. Penalty Phase (Defendant's Assignments of Error
12-14, 42, 43, 46, [*124] 47, 50-52)

A. Defendant's prior conviction was introduced
during the penalty phase in violation of State v.
Jackson, 608 So.2d 949 (La. 1992). (Defendant's
Assignment of Error 12-14)
Defendant argues that the trial court erroneously
permitted the State to introduce evidence of defendant's
Missouri guilty plea to one count of First Degree Assault
and one count of Armed Criminal Action on August 10,
2000. According to defendant, the convictions were
inadmissible because the Missouri court did not properly
advise him of his constitutional right against selfincrimination as required by Boykin v. Alabama, 395
U.S. 238, 89 S. Ct. 1709, 23 L. Ed. 2d 274 (1969).
Defendant further argues that the court erroneously
permitted the State to introduce defendant's guilty plea
colloquy to the jury, although State v. Jackson expressly
limits the State's introduction of evidence of prior
convictions at the penalty phase of a capital trial to: "the
document certifying the fact of conviction and [] the
testimony of the victim or of any eyewitness to the crime
. . ." 608 So.2d 949, 954 (La. 1992). According to
defendant, the erroneous introduction of his previous
plea [Pg 81] exposed the jury to the unfairly prejudicial
facts underlying his prior conviction. Specifically, the
prior conviction arose out of an incident in which
defendant [*125] poured boiling water on a 16 year-old
child's face, neck, and chest.
Regardless of defendant's arguments, any error by the
trial court in permitting evidence of the Missouri plea is
moot, because defendant's character witness, his aunt,
Ms. Jacqueline James, testified that defendant "spent
time in jail" for the Missouri conviction, and she
explained the conviction was for throwing hot water on a
"young man" because of a dispute over a video game.
On cross-examination, Ms. James acknowledged the

Erica Navalance

Pet. App. A 37

Page 38 of 45
2020 La. LEXIS 228, *125
water was boiling.50 Thus, defendant cannot claim that
the State's introduction of the convictions or plea
colloquy prejudiced him or introduced an arbitrary factor
into the sentencing decision by exposing the jury to the
facts underlying the Missouri conviction.
In any event, prior convictions are admissible in the
penalty phase of a capital trial. Jackson, 608 So.2d at
954. Again, while Jackson limits the evidence to a
"document certifying the fact of conviction and to the
testimony of the victim or of any eyewitness to the
crime," id., defendant cites no law to support his
argument that a guilty plea colloquy cannot serve as the
document certifying the fact of conviction. Likewise, this
Court has held that the State [*126] may introduce
defendant's prior convictions in the sentencing phase
without an affirmative showing of compliance with
Boykin. State v. Jordan, 440 So.2d 716, 720 (La. 1983).
As a result, we find this claim to be without merit.

B. Duplicate aggravating factors violate the Eighth
and Fourteenth Amendments (Defendant's
Assignment of Error 42)
Defendant argues that his conviction and sentence are
unconstitutional because [Pg 82] the aggravating factors
supporting his death sentence are elements of his
conviction for first-degree murder. Specifically, the jury
found as aggravating factors: 1) the offender was
engaged in the perpetration or attempted perpetration of
second-degree cruelty to juveniles; and 2) the victim
was under 12 years of age. See La.C.Cr.P. arts. 905.3
and 905.4.51 Defendant contends the use of the same

50 The

State did not seek to introduce all of defendant's other
crimes, including defendant's burglary conviction and jail time
in Florida and a conviction stemming from a domestic violence
incident. However, Ms. James offered testimony referencing
these events.
51 La.

C.Cr.P. art. 905.3 provides:

A sentence of death shall not be imposed unless the jury
finds beyond a reasonable doubt that at least one
statutory aggravating circumstance exists and, after
consideration
of
any
mitigating
circumstances,
determines that the sentence of death should be
imposed. The court shall instruct the jury [*127]
concerning all of the statutory mitigating circumstances.
The court shall also instruct the jury concerning the
statutory aggravating circumstances but may decline to
instruct the jury on any aggravating circumstance not
supported by evidence. The court may provide the jury

factors in both the guilt and penalty phases of trial
violates the constitutional requirement that the death
penalty is narrowly applied to only the most extremely
culpable offenders.
Despite defendant's claim, the United States Supreme
Court has found that Louisiana's capital sentencing
scheme properly narrows the class of death-eligible
defendants during the guilt phase of trial by narrowly
defining the categories of murders for [*128] which a
death sentence could be imposed. The Court concluded
that the additional requirement that juries find
aggravating factors at sentencing was not part of the
constitutionally mandated narrowing process, so "the
fact that the aggravating circumstance duplicated one of
the elements of the crime does not make this sentence
constitutionally infirm." Lowenfield v. Phelps, 484 U.S.
231, 246, 108 S.Ct. 546, [Pg 83] 555, 98 L.Ed.2d 568
(1988). Defendant offers no support for his contention
that "Lowenfield, which was decided 30 years ago, is no
longer good law."
In addition, the jury need only find one statutory
aggravating circumstance to support a death sentence.
La. C.Cr.P. art. 905.3. The jury in this case found two
statutory aggravating circumstances: the victim was
under 12 years of age, and defendant was engaged in
the perpetration or attempted perpetration of seconddegree cruelty to juveniles. Either of these is sufficient to
support defendant's sentence. See La. C.Cr.P. arts.
905.3 and 905.4; State v. Wright, 01-0322, p. 15 (La.
12/4/02), 834 So.2d 974, 987 (if jury finds multiple
aggravating factors to impose a death sentence, and the
reviewing court finds one was based on insufficient
evidence, the conviction and sentence may nonetheless
with a list of the mitigating and aggravating
circumstances upon which the jury was instructed.
La. C.Cr.P. art. 905.4 provides in pertinent part:
A. The following shall be considered aggravating
circumstances:
(1) The offender was engaged in the perpetration or
attempted perpetration of aggravated or first degree rape,
forcible or second degree rape, aggravated kidnapping,
second degree kidnapping, aggravated burglary,
aggravated arson, aggravated escape, assault by driveby shooting, armed robbery, first degree robbery, second
degree robbery, simple robbery, cruelty to juveniles,
second degree cruelty to juveniles, or terrorism.
...
(10) The victim was under the age of twelve years or
sixty-five years of age or older.

Erica Navalance

Pet. App. A 38

Page 39 of 45
2020 La. LEXIS 228, *128
stand so long as there is at least one statutory
aggravating factor grounded in sufficient evidence);
State v. Martin, 93-0285 (La. 10/17/94), 645 So.2d 190
("[T]he failure of one statutory [*129] aggravating
circumstance does not invalidate others properly found,
unless introduction of evidence in support of the invalid
circumstances interjects an arbitrary factor into the
sentencing proceeding."). We find both aggravating
factors are solidly supported by the evidence, as
discussed above. As such, we find no merit to this
assignment of error.

C. An unacceptable error rate, disproportional racial
impact, and evolving standards of decency render
the death penalty unconstitutional. (Defendant's
Assignments of Error 43, 46)
Defendant argues that the high rate of exonerations
among individuals sentenced to death, both nationwide
and in Louisiana, render the death penalty
unconstitutional. He also argues that a disproportionate
percentage of those sentenced to death in East Baton
Rouge Parish are black, and, as such, systemic racial
discrimination constitutes an unconstitutional arbitrary
factor in capital sentencing. Defendant further argues
that evolving standards of decency have [Pg 84]
rendered the death penalty unconstitutional, as shown
by the fact that death sentences have become
increasingly disfavored by society, are rarely imposed,
and many jurisdictions have eliminated the [*130] death
penalty altogether.
As Justice Scalia addressed in his concurrence in
Kansas v. Marsh, 548 U.S. 163, 193,126 S.Ct. 2516,
2535-36, 165 L.Ed.2d 429 (2006), exonerations do not
come about "through the operation of some outside
force to correct the mistakes of our legal system, [but]
rather . . . as a consequence of the functioning of our
legal system." Moreover, "[c]apital cases are given
especially close scrutiny at every level, which is why in
most cases many years elapse before the sentence is
executed." Id., 548 U.S. at 198, 126 S.Ct. at 2538. Thus,
"[r]eversal of an erroneous conviction on appeal or on
habeas, or the pardoning of an innocent condemnee
through executive clemency, demonstrates not the
failure of the system but its success." Id., 548 U.S. at
193, 126 S.Ct. at 2536.
Louisiana's bifurcated capital sentencing scheme,
modeled on the Georgia statute upheld in Gregg v.
Georgia, 428 U.S. 153, 187, 96 S.Ct. 2909, 2932, 49
L.Ed.2d 859 (1976), passes constitutional muster under

the Eighth Amendment by narrowing the substantive
definition of first-degree murder to restrict the class of
death-eligible cases and by further providing for a
sentencing hearing in which the jury may make a
binding decision that the defendant receive a sentence
of life imprisonment at hard labor. State v. Welcome,
458 So.2d 1235, 1251-52 (La. 1982). Accordingly, we
find no merit to defendant's assignment of error in this
regard.

D. A finding of intent to inflict great bodily harm to
support a capital [*131] conviction
unconstitutionally obviates the need for the jury to
find specific intent to kill. (Defendant's Assignment
of Error 47)
Defendant argues that La. R.S. 14:30 unconstitutionally
permits a death sentence to be imposed when a
defendant merely had the specific intent to inflict great
bodily harm. Citing Enmund v. Florida, 458 U.S. 782,
102 S.Ct. 3368, 73 L.Ed.2d 1140 [Pg 85] (1982),
defendant contends that the Eighth and Fourteenth
Amendments require that a defendant act with the
specific intent to kill in order to be subject to the death
penalty and that "[s]entencing a defendant to death in
circumstances where the defendant did not kill, intend to
kill, and had lesser culpability than those who have
killed is inconsistent with the Eighth and Fourteenth
Amendments."
Defendant did not challenge the constitutionality of La.
R.S. 14:30 on these grounds during the proceedings
below, and thus, he has failed to preserve this claim for
appeal. See State v. Hatton, 07-2377, p. 13 (La. 7/1/08),
985 So.2d 709, 718 ("It is well-settled that a
constitutional challenge may not be considered by an
appellate court unless it was properly pleaded and
raised in the trial court below.") (internal citation
omitted). Furthermore, defendant's reliance on Enmund
is misplaced. Enmund addressed a capital sentence for
felony murder where the defendant participated in the
robbery but was not physically present when [*132] the
victims were killed by his co-perpetrators. The Court
held that Enmund's sentence was unconstitutional under
the Eighth Amendment because he was sentenced to
death in the "absence of proof that Enmund killed or
attempted to kill . . . ." Enmund v. Florida, 458 U.S. 782,
801, 102 S.Ct. 3368, 3379, 73 L.Ed.2d 1140 (1982).
Here, in contrast, defendant was the individual who
killed the victim, so no such concern arises, and thus,
the holding of Enmund does not apply.

Erica Navalance

Pet. App. A 39

Page 40 of 45
2020 La. LEXIS 228, *132
As stated previously, in Lowenfield, supra, the United
States Supreme Court found that Louisiana's capital
sentencing scheme properly restricts the class of deatheligible defendants to those most culpable, by narrowly
defining the categories of murders for which a death
sentence could be imposed. Because we find La. R.S.
14:30 applies to defendant in this case, we find this
assignment of error without merit.
[Pg 86] E. The jury's failure to find that death should
be imposed beyond a reasonable doubt violated the
Eighth and Fourteenth Amendments. (Defendant's
Assignment of Error 50)
Defendant alleges his right to a fair trial and reliable
sentencing require the jury to decide beyond a
reasonable doubt that death is the appropriate
punishment. Defendant appears to acknowledge that
this argument is without merit, however, by conceding
that this Court has held on several occasions [*133]
that juries need not reach their sentencing result beyond
a reasonable doubt. See State v. Magee, 11-0574, (La.
9/28/12), 103 So.3d 285, 335; State v. Anderson, 062987, p. 61 (La. 9/9/08), 996 So.2d 973, 1015; State v.
Koon, 96-1208, p. 27 (La. 5/20/97), 704 So.2d 756, 77273 ("Louisiana is not a weighing state. It does not
require capital juries to weigh or balance mitigating
against aggravating circumstances, one against the
other, according to any particular standard."). We find
this assignment of error to be without merit.

F. Capital sentence is invalid without open and
public executions. (Defendant's Assignment of Error
51)
Defendant contends that Louisiana's prohibition on
public execution undermines the deterrent effect of
capital punishment, and that public executions are
required by the Eighth Amendment in order for society
to continually reassess whether it wishes to continue to
permit capital punishment. See La. R.S. § 15:569(B)
("Every execution shall be made in a room entirely cut
off from view of all except those permitted by law to be
in said room.")
In the 19th century, executions in the United States
became private events and moved from the public
square to inside prison walls. Furman v. Georgia, 408
U.S. 238, 297, 92 S.Ct. 2726, 2756, 33 L.Ed.2d 346
(1972) (Brennan, J., concurring) ("No longer does our
society countenance the spectacle of public executions,
once thought desirable as a deterrent to criminal

behavior by others. Today we reject public executions
as debasing [*134] and brutalizing to us all.") This
Court has repeatedly rejected [Pg 87] similar demands
for a return to the spectacle of public executions in the
unpublished appendices of opinions affirming other
capital convictions and sentences. See State v. Dorsey,
10-0216 (La. 9/7/11), 74 So.3d 603; State v. Dressner,
08-1366 (La. 7/6/10), 45 So.3d 127; State v. Williams,
07-1407 (La. 10/20/09), 22 So.3d 867. Thus, this
assignment of error is meritless.

G. Cumulative error rendered defendant's trial
fundamentally unfair. (Defendant's Argument
Assignment of Error 52)
Despite fastidious examination of the record and all of
defendant's assignments of error, we find no reversible
error. This Court has noted that, "the combined effect of
the incidences complained of, none of which amounts to
reversible error [does] not deprive the defendant of his
right to a fair trial." State v. Copeland, 530 So.2d 526,
544-45 (La. 1988), quoting State v. Graham, 422 So.2d
123, 137 (La. 1982), appeal dismissed, 461 U.S. 950,
103 S. Ct. 2419, 77 L. Ed. 2d 1309 (1983). Although the
Court has often reviewed cumulative error arguments, it
has continually rejected them. Instead, the Court has
consistently found that harmless errors, however
numerous, do not aggregate to reach the level of
reversible error. See, e.g., State v. Strickland, 93-0001,
pp. 51-52 (La. 11/1/96), 683 So.2d 218, 239; State v.
Taylor, 93-2201 (La. 2/28/96), 669 So.2d 364 (unpub'd
app'x.); State v. Tart, 94-0025, p. 55 (La. 2/9/96), 672
So.2d 116, 146; State v. Copeland, 530 So.2d 526, 54445 (La. 1988) (citing State v. Graham, 422 So.2d 123,
137 (La. 1982)); State v. Sheppard, 350 So.2d 615, 651
(La. 1977)). Other courts have reached the same
conclusion in addressing this issue. See, e.g., Mullen v.
Blackburn, 808 F.2d 1143, 1147 (5th Cir. 1987) (court
rejects cumulative error claim and finds that "twenty
times zero equals zero"); Foster v. State, 639 So.2d
1263, 1303 (Miss. 1994) (finding [*135] no "near errors"
and rejecting cumulative error analysis). This Court did
not find any substantive error in the lower court
proceedings and therefore no cumulative error
warranting [Pg 88] reversal exists. This assignment of
error is without merit.

CAPITAL SENTENCE REVIEW
The court imposed a sentence of death, as unanimously
recommended by the jury. Under
La.C.Cr.P. art.

Erica Navalance

Pet. App. A 40

Page 41 of 45
2020 La. LEXIS 228, *135
905.952 and La.S.Ct.R. 28, this Court reviews every
sentence of death imposed by Louisiana courts to
determine whether it is constitutionally excessive. In
making this determination, the Court considers whether
the jury imposed the sentence under the influence of
passion, prejudice, or other arbitrary factors; whether
the evidence supports the jury's findings with respect to
a statutory aggravating circumstance; and whether the
sentence is disproportionate, considering both the
offense and the offender. State v. Magee, 11-574, p. 69
(La. 9/28/12), 103 So.3d 285, 331.
For purposes of the capital sentence review, the district
court judge is required to file a Uniform Capital
Sentence Report ("UCSR") by La.S.C.R. 28 § 3(a). The
defense and the State have each filed a Sentence
Review Memorandum. These documents, along with the
penalty phase testimony of defendant's aunt, Ms.
Jacqueline James, show that defendant [*136] is a
black male who was born on June 21, 1977. Defendant
was 29 years old at the time of the offense. He was born
in St. Louis, Missouri, where he primarily grew up, but
intermittently resided with relatives in Pensacola, Florida
as well. Defendant had lived in Baton Rouge for
approximately six weeks before the instant offense.
Defendant was one of two children. He did not know his
father, and his mother, Sharron Kent, abused him
psychologically and physically. By the time defendant
was 11, he was removed from his home because he
was "incorrigible." He moved among many placements
with relatives, in foster homes, and in institutions, and
was [Pg 89] removed from each situation because of his
violent and aggressive behavior. As noted in his criminal
history, defendant attempted to stab a social worker at
one placement. Defendant's defiant, violent, and
aggressive behavior prevented any long-term placement
with family members as well. When at home, he
attacked his brother, and he pulled a knife on his
grandmother and threatened to kill her. Defendant's
aunt arranged for him to live with her mother in Florida,
but defendant was sent back to a group home in St.
Louis after threatening to [*137] murder his caregiver in
her sleep. Defendant also sexually molested the sevenyear-old son of a caregiver.
According to the UCSR, defendant did not have stable

52 La.

C.Cr.P. art. 905.9 provides: "The Supreme Court of
Louisiana shall review every sentence of death to determine if
it is excessive. The court by rules shall establish such
procedures as are necessary to satisfy constitutional criteria
for review."

childhood schooling because of his frequent residential
changes and because of his severe behavioral
problems. Defendant was removed from several schools
because of fighting and aggressive behaviors, as well
as inappropriate and aggressively sexualized behaviors.
According to an evaluation conducted while he was in
school, defendant was an average student academically
and intellectually, but he was behaviorally disordered.
He consistently blamed others for his problematic
behavior and claimed he was the victim. The report also
noted that defendant did not maintain self-control when
problems arose. The UCSR indicates that defendant
earned his GED while in the Job Corps.
Defendant married Genise Irving in 2001, but they are
separated. They have two living children; a third child
died in infancy. Defendant also has another child from
another relationship. Defendant's wife reported that he
was patient with the children, however he rarely saw
them because of his "nomadic lifestyle."
Defendant was not employed at the time of the
offense, [*138] and has very little employment history.
According to the UCSR, defendant was employed by
Rally's Hamburgers in St. Louis, Missouri, for a time
when he was 18 years old. He was also briefly
employed by USA Trucking and All For One Trucking.
Defendant is classified as a third felony offender on the
basis of two prior out-of- [Pg 90] state felony convictions
from 1998 and 2000. First, in Pensacola, Florida, on
November 8, 1996, defendant was convicted of Burglary
of an Occupied Dwelling and Grand Larceny and
sentenced to concurrent terms of three years
imprisonment in Florida state prison on each count. On
January 6, 1998, defendant was placed on three years
supervised probation, but he absconded to St. Louis in
June of 2000, where he committed First Degree Assault
and Armed Criminal Action, discussed below. Defendant
was re-arrested on June 23, 2002, when he returned to
Florida after he was released from incarceration in
Missouri. On October 24, 2002, defendant pled no
contest and was sentenced to concurrent terms of one
year imprisonment in a Florida county jail on each
count.
Second, in St. Louis, Missouri, defendant was convicted
of First Degree Assault and Armed Criminal Action
on [*139] August 10, 2000. He was sentenced to
concurrent terms of 12 years imprisonment in the
Missouri Department of Corrections, suspended, with
two years active supervised probation and three years
imprisonment in the Missouri Department of

Erica Navalance

Pet. App. A 41

Page 42 of 45
2020 La. LEXIS 228, *139
Corrections, which was not suspended. Defendant was
released on parole on February 9, 2002.
In addition to these convictions, defendant has two
misdemeanor convictions. In 2006, he was convicted of
misdemeanor Theft of Property in Dallas, Texas. In
2008, defendant was convicted of misdemeanor Battery
of a Police Officer in East Baton Rouge Parish.
Defendant has also been charged with several offenses
that were not prosecuted for various reasons. In 1995,
defendant was charged in St. Louis with Unlawful Use of
a Weapon, but he absconded to Florida. The State
declined to prosecute the charges when he returned to
St. Louis. In 2006, defendant was charged with Simple
Assault in New Brunswick, New Jersey; the charge was
dismissed. Also in 2006, defendant was arrested in
Texas for Possession of Marijuana; the charge was
rejected. Defendant was arrested in St. Louis in 2006 for
Third-Degree Assault, but there is no record of a
prosecution. As noted above, while [*140] a juvenile in
[Pg 91] St. Louis, Missouri, defendant was charged with
Third Degree Assault for attempting to stab his social
worker with a sharp piece of metal he removed from a
ceiling vent. He was placed on supervised probation as
a result.
Defendant did not testify at either the guilt or penalty
phase of his capital trial. He did give two statements that
were introduced at trial, as discussed above. At the
penalty phase, the defense presented testimony from
defendant's aunt, Ms. Jacqueline James, as well as
forensic psychiatrist Dr. Ellen Gandle, and clinical
forensic psychologist Dr. Robert Storer. Defendant's
aunt, Ms. James, testified that she was married to
defendant's uncle. Defendant's mother had three
children, one of whom died in infancy, so defendant
grew up with one brother. She testified that defendant's
father was uninvolved and his mother was "very, very
violent" when she drank. James described seeing
defendant's mother slap him to the ground, punch him,
beat him with an extension cord, and choke him, as well
as lock him in a closet because he had not washed the
dishes. She testified that defendant's mother was also
emotionally abusive, telling defendant that she
hated [*141] him, he was worthless, and she wished he
was never born; defendant's maternal grandmother
would tell him the same things.53 Defendant's mother
and grandmother were not abusive to his brother,
however, and would take his brother out for activities
without defendant because of his problematic behavior.

According to Ms. James, when defendant was seven or
eight years old, she drove him and his mother to the
juvenile justice center to meet with his caseworker. His
mother tried to leave him with juvenile justice because
"he wasn't listening at home." Regardless, "a couple of
weeks" later, defendant "did end up in the system." After
that, defendant primarily moved between orphanages
and foster homes. Ms. James' attempts to place
defendant with relatives in Pensacola were
unsuccessful because of defendant's behavior. Back in
St. Louis, [Pg 92] defendant's behavior continued to be
uncontrollable. When he turned 17 and aged out of
juvenile detention, defendant lived in St. Louis with Ms.
James' brother, then moved to Pensacola to live with
Ms. James. He returned to St. Louis again after serving
time in jail for a burglary. While there, defendant met
and married Genise Irving, but was also placed [*142]
in jail again for throwing boiling water on a sixteen yearold during an altercation. When defendant was released
from prison, Ms. James arranged an apartment for him
and Genise in Pensacola. Soon, however, Genise
returned to St. Louis, where her children lived. Ms.
James further testified that defendant had a child with
Genise that had died, and he had two other children, but
she did not know their names and could not remember
the circumstances under which the child had died. Ms.
James testified that defendant dated a woman named
Misty after Genise left, which led to a domestic violence
incident and jail time.54
Dr. Ellen Gandle, qualified as an expert in forensic
psychiatry, testified regarding the effect defendant's
tumultuous and abusive childhood had on his adult life.
Dr. Gandle evaluated defendant, but did not diagnose
him with any mental disease or defect. The defense also
called forensic psychology expert Dr. Robert Storer,
who testified that he conducted a comprehensive
psychological evaluation on defendant. He learned that
as a child defendant had been diagnosed with posttraumatic stress disorder, and that defendant had
attempted suicide as a child. Dr. Storer's clinical
impression [*143] was that defendant "may" have
bipolar disorder. In rebuttal, the State called Dr. Donald
Hoppe, also an expert in forensic psychology. In light of
the determination by Dr. Storer that defendant has a
severe personality disorder, Dr. Hoppe testified that a
personality disorder is not a mental disease or defect
that would inhibit defendant's ability to tell right from

54 It
53 According

to the UCSR, defendant's grandmother told him
this after he drew a knife and threatened to kill her.

is unclear from the record how the incident James
described corresponds to defendant's criminal history
recounted in the UCSR.

Erica Navalance

Pet. App. A 42

Page 43 of 45
2020 La. LEXIS 228, *143
wrong.
The State presented victim impact testimony from the
victim's mother and [Pg 93] grandfather, Ms. Coon and
Mr. Cleveland Coon. Ms. Coon testified that two and a
half year-old Darian loved to play with his big sister
Daisha and was excited to start preschool. She also
described how Darian's death had affected her and
Daisha. Mr. Coon testified about the special, close
relationship he had with Darian, and how Darian's death
affected him.

Passion, Prejudice, and Other Arbitrary Factors
The victim in this case, Darian Coon, was a two-year-old
black male. Defendant is a black male, who was 29
years old at the time of the offense. Five members of
the jury were black, the same race as defendant. As
noted above, defendant argues that race is a factor in
the East Baton Rouge Parish District Attorney's
determination whether to [*144] seek the death penalty,
citing statistics showing a black defendant is more likely
to be sentenced to death for killing a white victim than a
black victim. As both defendant and the victim are black,
race is not an issue in defendant's case.
Defendant did not raise a Batson objection during voir
dire, and five members of his jury, or 42%, were black.
However, as discussed previously, he argues the death
qualification process in his case disproportionately
excluded black potential jurors and that the venire was
drawn in a manner that unfairly excluded black males
from the pool. Nevertheless, our extensive review of this
record reveals defendant's trial was conducted free of
racial discrimination.
Although there was some pretrial publicity, as discussed
above, all prospective jurors were questioned about any
knowledge they may have possessed about the case,
and all those with prior knowledge were either excluded
or indicated an ability to set it aside and decide the case
based entirely upon the evidence presented in court.
The chosen jurors and alternates were all sequestered
for the duration of the proceedings, and there is no
evidence in this record of any issues related to
sequestration [*145] during either phase of trial.
[Pg 94] Defendant also contends that the State's
misleading insinuations of sexual assault, false DNA
evidence, gruesome photographs, and penalty phase
introduction of the factual basis for his Missouri felony
conviction introduced arbitrary factors into his trial and
sentencing. However, each of these allegations was

addressed above and found meritless. Nothing in the
record or UCSR indicates that arbitrary factors
contributed to the jury's decision to impose the death
sentence. La. S.Ct.R. 28; Rule 905.9.1, sec. 1.

Aggravating Circumstances
The State relied on two aggravating circumstances
under La.C.Cr.P. art. 905.4(A) and the jury returned the
verdict of death, finding that both aggravating
circumstances were supported by the evidence: 1) the
victim was under the age of 12 years old; and 2)
defendant killed the victim while subjecting him to
second degree cruelty to a juvenile. La.C.Cr.P. art.
905.4(A)(1) , (10).
The State's guilt phase evidence, which was
reintroduced at the penalty phase, established that the
29-year-old defendant punched and beat the two-yearold victim, causing fatal massive internal injuries. He
then failed to seek help for the dying child for at least an
hour, despite recognizing that the victim was
unresponsive [*146] and not breathing. The two
aggravating circumstances relied upon by the State
were clearly supported by the evidence. Consequently,
the jury's decision to impose the death sentence is firmly
supported by the record.

Proportionality
Although the federal Constitution does not require a
proportionality review, see Pulley v. Harris, 465 U.S. 37,
104 S.Ct. 871, 79 L.Ed.2d 29 (1984), comparative
proportionality review remains a relevant consideration
in determining the issue of excessiveness in Louisiana.
State v. Burrell, 561 So.2d 692, 710 (La. 1990); State v.
Wille, 559 So.2d 1321, 1341 (La. 1990); State v.
Thompson, 516 So.2d 349, 357 [Pg 95] (La. 1987). This
Court, however, has set aside only one death sentence
as excessive under the post-1976 statutes, finding in
that one case, inter alia, a sufficiently "large number of
persuasive mitigating factors." State v. Sonnier, 380
So.2d 1, 9 (La. 1979); see also State v. Weiland, 505
So.2d 702, 707-10 (La. 1987) (reversed on other
grounds; dictum suggested death penalty had been
disproportionate).
This Court reviews death sentences to determine
whether the sentence is disproportionate to the penalty
imposed in other cases, considering both the offense
and the offender. If the jury's recommendation is

Erica Navalance

Pet. App. A 43

Page 44 of 45
2020 La. LEXIS 228, *146
inconsistent with sentences in similar cases in the same
jurisdiction, an inference of arbitrariness arises. Sonnier,
380 So.2d at 7. The State's Sentence Review
Memorandum reveals that, since 1976, jurors in the
19th Judicial District Court, East Baton Rouge [*147]
Parish, have returned a guilty verdict in 81 capital
cases, including defendant's trial. Of those, juries have
recommended imposition of the death penalty 30 times.
It is appropriate for the Court to look beyond the 19th
JDC and conduct a statewide proportionality review. Cf.
State v. Davis, 92-1623, pp. 34-35 (La. 5/23/94), 637
So.2d 1012, 1030-31.
A statewide review reflects that jurors regularly
recommend capital sentences in cases involving the
murders of young children. See State v. Crawford, 142153 (La. 11/16/16), 218 So.3d 13 (defendant
smothered his one-year-old son; reversed on grounds
unrelated to sentencing proportionality); State v. Carter,
10-0614 (La. 1/24/12), 84 So.3d 499 (defendant
abducted the five-year-old-son of a former girlfriend and
burned him to death); State v. Reeves, 06-2419 (La.
5/5/09), 11 So.3d 1031 (defendant abducted,
sodomized, and killed the 4-year-old victim by stabbing
her numerous times and cutting her throat); State v.
Wright, 01-0322 (La. 12/4/02), 834 So.2d 974
(defendant admitted to spending 'twenty-four hours a
day' with the child, brutally beating the victim
"innumerable times" as punishment); State v.
Carmouche, 01-0405 (La. 5/14/02), 872 So.2d 1020
(defendant killed his girlfriend and two children, aged 15
and two); State v. Deal, 00-0434 (La. 11/28/01), 802
So.2d [Pg 96] 1254 (defendant killed his two-month-old
son by sticking a paper towel down the child's throat to
cut off his airway, then picked the child up and threw
him against the crib, fracturing the baby's skull.); State
v. Deruise, 98-0541 (La. 4/3/01), 802 So.2d 1224
(defendant shot and killed an eleven-month-old [*148]
infant during an armed robbery.); State v. Langley, 951489 (La. 4/14/98), 711 So.2d 651 (defendant choked a
six-year-old boy with his hands and then garroted the
victim with nylon line and stuffed a dirty sock into the
victim's mouth; on remand from this Court, the district
court quashed the grand jury indictment on grounds of
racial discrimination in the selection of grand jury
forepersons in East Baton Rouge; defendant
subsequently received a new trial in State v. Langley,
95-1489 (La. 4/3/02), 813 So.2d 356.); State v.
Connolly, 96-1680 (La. 7/1/97), 700 So.2d 810 (the
defendant, a Sunday school teacher, slashed the throat
of his nine-year-old victim behind the church after
church services; the victim was found alive, in a pool of
blood by his father, but died shortly after arriving at the

hospital; the State argued that the victim was sexually
abused by the defendant based upon the dilation of the
victim's anus, although no other evidence supported this
claim.); State v. Sepulvado, 93-2692 (La. 4/8/96), 672
So.2d 158 (defendant, over a three day period, tied a
rope around his six-year-old stepson's neck, threatened
to hang him, beat him, put his head in the toilet and
flushed, refused to feed him, kicked him from one room
to another, and, finally, put him in a tub of scalding
water which produced third degree burns over sixty
percent of the victim's body.); State v. Copeland, 530
So.2d 526 (La. 1988) (defendant and his codefendant, [*149] George Brooks, repeatedly raped an
eleven-year-old boy and shot him several times); State
v. Loyd, 489 So.2d 898 (La. 1986) (25-year-old
defendant kidnapped a three-year-old victim, raped her,
and drowned her in a ditch. On October 29, 1993, the
sentence was vacated by the United States Fifth Circuit
on grounds of ineffective assistance of counsel at
penalty phase. The State was ordered to sentence the
defendant to life imprisonment or retry the sentencing
phase. [Pg 97] See State v. Loyd, 96-1805 (La.
2/13/97), 689 So.2d 1321 (commutation instruction
mandated by La.C.Cr.P. art. 905.2(B) , 1995 La. Acts
No. 551, may apply to the defendant's resentencing
penalty trial although it was not in effect at the time of
the offense.); State v. Brogdon, 457 So.2d 616 (La.
1984) (19-year-old defendant and a 17-year-old
accomplice lured the 11-year-old victim into their car,
drove her to an isolated spot, raped her repeatedly,
forced oral sex, and then tortured her by beating her
with a brick, shoving sharp objects into her vagina, and
cutting her with a broken bottle.).
Although many of these cases involve additional
felonies or multiple victims, defendant's sentence does
not appear disproportionate given the brutal beating he
inflicted on the toddler victim and his failure to seek help
as he watched the child dying. In view of the foregoing,
the death [*150] penalty imposed on defendant,
Dacarius Holliday, for the first-degree murder of Darian
Coon, is not disproportionate.

CONCLUSION
We have discerned no reversible error at either phase of
trial. The evidence fully supports the jury's determination
that the 29-year-old defendant acted with the specific
intent to inflict great bodily harm on the two-year-old
victim under his care when he punched and beat the
victim with enough force to lacerate his internal organs
and cover his body with more than 75 bruises, even

Erica Navalance

Pet. App. A 44

Page 45 of 45
2020 La. LEXIS 228, *150
biting the bottom of the child's foot. Further, defendant
intentionally mistreated the dying child, causing serious
bodily injury (death) when he failed to seek medical
attention despite recognizing that the child was
unresponsive and not breathing. The evidence supports
the charged offense of first degree murder under both
R.S. 14:30(A)(1) , (5) and R.S. 14:93.2.3, as well as the
statutory aggravating circumstances urged by the State
and which were properly found by the jury and fully
supported by the record. La.C.Cr.P. art. 905.4(A)(1) ,
(10); R.S. 14:93.2.3.
[Pg 98] DECREE
Accordingly, the defendant's conviction and sentence
are affirmed. In the event this judgment becomes final
on direct review when either: (1) the defendant fails to
timely petition [*151] the United States Supreme Court
for certiorari; or (2) that Court denies his petition for
certiorari; and either (a) the defendant, having filed for
and been denied certiorari, fails to timely petition the
United States Supreme Court, under their prevailing
rules, for rehearing of denial of certiorari; or (b) that
Court denies his petition for rehearing, the trial judge
shall, upon receiving notice from this Court under La.
C.Cr.P. art. 923 of finality of direct appeal and, before
signing the warrant of execution, as provided by La.
R.S. 15:567(B), immediately notify the Louisiana
Indigent Defense Assistance Board and provide the
Board with reasonable time in which: (1) to enroll
counsel to represent defendant in any state postconviction proceedings, if appropriate, pursuant to its
authority under La. R.S. 15:149.1; and (2) to litigate
expeditiously the claims raised in that original
application, if filed, in the state courts.
AFFIRMED.

End of Document

Erica Navalance

Pet. App. A 45

State v. Holliday
Supreme Court of Louisiana
April 9, 2020, Decided
No.2017-KA-01921
Reporter
2020 La. LEXIS 679 *; 2017-01921 (La. 04/09/20);

STATE OF LOUISIANA VS. DACARIUS HOLLIDAY

Notice: THIS DECISION IS NOT FINAL UNTIL
EXPIRATION OF THE FOURTEEN DAY REHEARING
PERIOD.
DECISION WITHOUT PUBLISHED OPINION

Prior History: [*1] IN RE: Dacarius Holliday Applicant Defendant; Applying for Rehearing, Parish of
East Baton Rouge, 19th Judicial District Court
Number(s) 05-07-0908.

State v. Holliday, 2020 La. LEXIS 228 (La., Jan. 29,
2020)

Judges: Susan M. Chehardy, Bernette J. Johnson,
John L. Weimer, Jefferson D. Hughes, III, Scott J.
Crichton, James T. Genovese, James H. Boddie.

Opinion
Application for rehearing denied.

End of Document

Erica Navalance

Pet. App. B 1

